<html>
<title> - RESPONDING TO THE DRUG CRISIS IN NORTHERN CALIFORNIA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





          RESPONDING TO THE DRUG CRISIS IN NORTHERN CALIFORNIA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2000

                               __________

                           Serial No. 106-156

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-900                     WASHINGTON : 2000

                                 ______

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                Mason Alinger, Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 6, 2000....................................     1
Statement of:
    Ayala, Dr. Jorge, superintendent, Yolo County Office of 
      Education..................................................    10
    Bruce, Gilbert, Director, Drug Enforcement Administration, 
      San Francisco, CA..........................................    89
    Denney, Jim, sheriff, Sutter County, CA......................    75
    Parker, Clay, sheriff, Tehema County, CA.....................    70
    Ruppel, Raelyn, El Dorade County resident....................     8
    Ruzzamenti, Bull, director, Central California Valley HIDTA..    84
    Saunders, Larry, tactical commander of the Narcotics and Gang 
      Division...................................................    47
    Scott, McGregor, district attorney, Shasta County............    63
    Seave, Paul, U.S. attorney, Eastern District of California...   106
    Shadinger, Gerald, sheriff, Colusa County, CA................    83
    Webber-Brown, Ms., coordinator, Drug-Endangered Children 
      Program....................................................    13
Letters, statements, et cetera, submitted for the record by:
    Bruce, Gilbert, Director, Drug Enforcement Administration, 
      San Francisco, CA, prepared statement of...................    93
    Denney, Jim, sheriff, Sutter County, CA, prepared statement 
      of.........................................................    78
    Parker, Clay, sheriff, Tehema County, CA, prepared statement 
      of.........................................................    72
    Ruzzamenti, Bull, director, Central California Valley HIDTA, 
      prepared statement of......................................    85
    Scott, McGregor, district attorney, Shasta County, prepared 
      statement of...............................................    65
    Webber-Brown, Ms., coordinator, Drug-Endangered Children 
      Program, prepared statement of.............................    16

 
          RESPONDING TO THE DRUG CRISIS IN NORTHERN CALIFORNIA

                              ----------                              


                         MONDAY, MARCH 6, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      Woodland, CA.
    The subcommittee met, pursuant to notice, at 9 a.m., in the 
Yolo County Board Chambers, 625 Court Street, room 206, 
Woodland, CA, Hon. John L. Mica (chairman of the subcommittee) 
presiding.
    Present: Representatives Mica and Ose.
    Also present: Representative Herger.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; and Mason Alinger, professional staff member.
    Mr. Mica. I would like to call this hearing of this 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order.
    Good morning. I am John Mica, chairman of the subcommittee, 
which is a subcommittee within the Government Reform Committee 
of the House of Representatives. We are in California today, 
and appearing here with this hearing at the request of 
Congressman Doug Ose, who is one of the most active members on 
our subcommittee and the Government Reform Committee, and has 
been a leader in attempting to help us develop a strategic and 
effective national drug policy.
    I was speaking with one of the supervisors just before we 
began started today, and he was telling me that this area has 
had significant problems with illegal narcotics, just like the 
rest of the country. My area, which is central Florida, has had 
a record number of heroin overdose deaths, primarily with the 
young people.
    In fact, a recent headline in our newspaper proclaimed that 
heroin overdose deaths now exceed homicides in central Florida. 
And I know this area has been hit by its own unique problems 
with illegal narcotics, and hopefully our subcommittee, through 
Representatives Ose and others' efforts, can assist us in 
responding and working with the local and State officials in 
doing a better job with this horrible problem.
    This is an investigations and oversight subcommittee of the 
U.S. House of Representatives. Our format for this hearing will 
follow our Washington format. We will have opening statements 
by Members, and they will be recognized. We then will have 
today two panels. We will hear from all of the witnesses on the 
first panel and then have a round of questions, and then will 
go to the second panel and do the same. That will be the order 
of business today.
    I will start with my opening statement and then yield to 
committee members. Our subcommittee is conducting this 
oversight field hearing as part of our need to understand fully 
our Nation's drug crisis and how it impacts different parts of 
our Nation, and what effective drug control efforts are 
underway, and which of these should be supported by Congress.
    Today, we will learn about the impact of the manufacture, 
use and trafficking of illegal drugs in northern California. We 
are privileged to have with us today congressional leaders who 
strongly support efforts to protect our communities from the 
ravages of illegal narcotics. As I said, I know that Mr. Ose, 
who invited us to this community, and who is a member of our 
subcommittee, has been very active in our subcommittee drug 
control oversight and policy issues.
    We also are very privileged to have with us Mr. Wally 
Herger. I believe he is a member of the Ways and Means and 
Budget Committee of the House of Representatives from the 
neighboring district just, I believe, north of here. And I want 
to thank him for his continued efforts to ensure that the drug 
problems of north California are efficiently and effectively 
addressed.
    I wish to thank all of the Members and participants for 
their presence here today. Mr. Souder has come from Indiana. He 
is also a member of our subcommittee. I welcome and thank him. 
I appreciate your dedication to this issue, which is of 
critical importance to our Nation.
    We are very honored to have testifying before us today a 
number of regional and local officials and citizens who are 
actively engaged in responding to the drug crisis and the 
terrible consequences of this epidemic on a daily basis. These 
individuals serve on the front line. They are preventing drug 
abuse in our schools and communities. They are enforcing our 
laws and are most in need of our effective and efficient 
support in the systems.
    This subcommittee is particularly interested in how 
communities and regions are dealing with the critical 
responsibilities of implementing successfully not just the 
Federal, but our national drug control strategy. After all, law 
enforcement and drug control are primarily State and local 
responsibilities. In Congress, we try to ensure that the 
Federal Government is doing everything possible to assist you, 
both in reducing the supply of drugs in our communities as well 
as the demand for drugs in our communities.
    In a recent hearing of the subcommittee, we learned that 
the estimates of Americans in need of drug treatment range from 
4.4 to 8.9 million. Yet, less than 2 million people have 
reportedly received treatment. It is our intention to see that 
this gap is addressed. Our subcommittee will continue its 
oversight in this area and seek to improve our Federal programs 
that support both State and local drug treatment prevention 
efforts.
    Today, we are focusing on regional challenges and threats 
facing northern California. As we will hear, illegal drug 
production, use and trafficking pose special dangers and 
challenges to schools and communities and law enforcement and 
public officials in this area.
    This region of California continues to be a primary 
manufacturing, distribution and consumption area for 
methamphetamine. But in the last several years, this area has 
experienced dramatic increases in the number and scale of 
clandestine methamphetamine manufacturing labs. These labs are 
operated by multi-drug trafficking organizations we know that 
are based in Mexico, but which now infest many areas of 
California. These organizations tend to locate their labs and 
so-called super labs in close proximity to the State's 
precursor chemical supply and also closely located to the 
companies that produce this on the major interstate highways 
including California's Interstate 5 and Highway 99.
    Large scale sophisticated methamphetamine labs are set up 
long in advance of use, are well concealed, heavily guarded, 
and can produce from 20 to 200 pounds of high purity product 
per cooking cycle. In response to this growing methamphetamine 
problem as well as continuing problems with a host of other 
illegal drugs, part of central California has been designated 
by the White House National Drug Control Policy as a High 
Intensity Drug Trafficking Area, commonly referred to as HIDTA. 
Under Federal law and either designation by Federal 
legislation, specific legislation, or under a general law, an 
area can request and become part of a High Intensity Drug 
Traffic Area, which makes it eligible for substantial Federal 
assistance and better coordination of antinarcotics efforts.
    Our subcommittee is responsible for authorizing and 
overseeing the Office of National Drug Control Policy and the 
HIDTA Program. Today, we will learn more about the 
effectiveness of the neighboring HIDTA, which covers nine 
counties, including what progress the HIDTA has made in 
combating drugs in this area, and how it may help others in 
northern California even more.
    I applaud the continuing dedication and professionalism of 
our witnesses today, and their willingness to share their ideas 
and needs with us. I can assure you that this subcommittee and 
your local representatives here today will do everything 
possible to assist you in ridding your communities of these 
deadly menaces, and in fact doing everything they can to 
protect your loved ones.
    We all recognize that this drug crisis demands full 
utilization of available resources in close cooperation and a 
comprehensive regional approach. After all, that is what 
HIDTA's are designed to do, and it is our job and 
responsibility in Congress to monitor and ensure their success. 
If obstacles are identified, then we must move decisively to 
overcome them. This community and this region of California and 
this Nation cannot afford to wait or delay. The drug crisis 
demands promising approaches and decisive action, and the time 
to act is now.
    I want to thank all of our witnesses for appearing before 
us today, particularly again I thank Mr. Ose for requesting 
this and for his tremendous service on our subcommittee, not 
only as a local and regional leader in this issue, but a 
national leader who I have counted on as a close ally as chair 
of this subcommittee.
    So with those comments, I am pleased now to yield to the 
gentleman from California, our host here, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. First let me express my 
appreciation to you for coming out here. I know that you have 
probably endless demands on your time, and for you to take the 
opportunity to come is something that we all appreciate here in 
the 3rd District. Your leadership, as you very briefly covered 
in your opening remarks, is remarkable. You picked up where 
Danny Hastert had ended his service as chairman of this 
committee, and there has been no drop in the intensity or 
continuity. I just want to make sure that you understand that 
we all appreciate that.
    I also want to make note of the hosts here. We have 
supervisor, Tom Stollar, who joined us. The Yolo County's Bill 
Oden has been very kind in letting us convene here. Mayor 
Woodland is also with us and Donald Soya is here. I appreciate 
your great hospitality. One of Tom's colleagues is in the back 
of the room. She is so quiet, but she gets so much done. That 
is Lanelle Pollack in the back. So thank you, all three of you. 
I also want to make mention of three other people, a couple of 
whom will be testifying. We have three sheriffs with us today. 
Clay Parker has come all the way down from Tehema County, in 
the back. We have Jim Denney from the Sutter County. And we 
have someone from Yolo County and Glenn County in the back 
also. Gentlemen, I appreciate you guys coming.
    I also want to extend my appreciation to Mr. Souder for 
traveling all the way from Indiana. Mark is--you don't see Mark 
in the media or in the paper. He just gets stuff done. It is 
really a pleasure to work with you. And my good friends from 
the north and east, the gentlemen who plays the drum for us. 
That is Congressman Herger. You have some folks from Butte 
County here, and I appreciate your taking the time to come down 
also.
    Mr. Chairman, the reason I am focused on this is I am not 
quite sure of a more pressing or compelling concern for which 
people run for Congress than to try and find some means in 
bringing a measure of relief to this issue. Each year, drugs 
kill 15,000 Americans. That is not our figures. Those are 
figures from Barry McCaffrey of the ONDCP, the Office of 
National Drug Control Policy. 15,000 Americans are really dying 
of drugs every year. In every community across America, there 
are drugs. We need to face up to it. They are destroying our 
youth and our communities. They are derailing academic 
achievement that we all so desperately want for your children. 
They are breaking up families and these drugs are contributing 
to crime.
    In this region, the largest problem is methamphetamines. It 
reflects the excellent transportation corridors we have in the 
larger rural areas that are immediately available to some of 
the cities. Meth is particularly a dangerous drug with 
significant disastrous side effects. Violent crime, domestic 
and child abuse, and interestingly marked severe environmental 
damage are just a few of the impacts that come from the 
production of methamphetamine. Locally or at least in this 
area, we have seen the effect of methamphetamines here in the 
last few weeks. We had an instance here--I meant to mention 
Dale back there, the chief of police here. We had an instance 
here in Woodland with a tragic outcome traced largely to drugs. 
We have a situation up in Shasta County that I think 
Congressman Herger is more familiar with in terms of someone in 
a position of respect and trust that may be involved in 
distributing methamphetamines. I won't even cite the name 
involved.
    Today, I look forward to hearing from our witnesses. I know 
you all took time out of a busy day to come down and visit with 
us. You all have had first hand experience dealing with the 
challenges of drugs amongst our youth and in society. I do 
appreciate it, because I know how hard it is to come out of 
your normal regime to come over here and testify. This is an 
important hearing and I appreciate you taking the time. With 
that, I will give it back to the chairman.
    Mr. Mica. I would like to yield to the gentleman from 
Indiana, Mr. Souder, at this time.
    Mr. Souder. I thank the chairman for holding this hearing, 
one of the most valuable things we do in this committee and 
have been doing over the last number of years. And we were 
concerned about the lack of focus in Congress and oversight 
function on the anti-drug issue. Chairman Mica and I have been 
involved in this, both as staffers years ago on the Senate 
side, and then since the Republicans took over the House and he 
in particular pushed for oversight hearings and getting out 
into the field. We have been down in central Florida a number 
of times and in Dallas, TX after they had a number of the 
heroin overdose problems there. Down in Nogales and Phoenix, on 
the border there, and basically around the country as well as 
the East and the Midwest. It helps not to just hear and read in 
the paper in Washington. Congressman Ose and Congressman Herger 
are going to aggressively advocate the California interest. But 
to be here and hear firsthand in more detail. Furthermore, we 
are not being buzzed to go running to 18 million votes and 
hearings, so we can actually sit through and all be here to 
listen and appreciate that. Congressman Ose has not only been a 
leader in Washington in making sure that California is heard. 
He went with the chairman and myself and some others down to 
South America to look firsthand at where the cocaine and much 
of the heroin and the hardcore marijuana was coming in. But as 
he and I well know, in Indiana the interdiction efforts that 
have been so destroyed over the last few years, which is why we 
saw the surge in cocaine and heroin purity go up and the price 
go down--as we get that up, methamphetamines are our grassroots 
threat all over this country because it is something that can 
be done domestically. Wherever you have national forests or 
wherever you have a lot of open land, it is very easy to get 
the labs that produce and send to the rest of the country. So 
it is good to be here focusing on that.
    We also know that wherever you have HIDTA, that while the 
focus is intense there, it spreads to the areas around that. In 
the Midwest, I have Chicago and Detroit on each side and the 
more pressure you put there, the more it squeezes out the 
counties around that don't necessarily have the manpower or the 
intensity that you would have right in the heart of the HIDTA, 
and we have to figure out how to not have it corrupt all the 
youth and the communities around it as well. So we are looking 
at hearing that impact here.
    I also want to pay tribute to Congressman Herger, who 
thought I was a little too conservative when I came to 
Congress, so he tried to make me a little bit more moderate. 
But I really appreciate his conservative Republican leadership 
in Washington in making our conference. We work not only on the 
anti-drug issue, but a lot of other issues of very much concern 
to the West. He has been one of the leaders in our conference 
in trying to make us more aware and more sensitive to Western 
concerns, and we appreciate that very much.
    Mr. Mica. Thank you. Now I would like to recognize a 
gentleman who is not a member of our subcommittee, but we are 
delighted to have him here today. He has been a leader on this 
issue in the Congress and a very good personal friend.
    Mr. Herger, you are recognized.
    Mr. Herger. Chairman Mica, I want to join in thanking you 
for leaving your Florida district and coming out----
    Mr. Mica. Where it is much warmer and sunnier.
    Mr. Herger. But coming here and having this hearing on this 
incredibly and crucially important issue to those of us who 
live here in northern California. Congressman Souder, I am not 
sure if I ever thought you were too conservative. Actually, I 
think you voted just right. But I thank you for your 
leadership, and again journeying out here from Indiana. We are 
all very grateful to you. And of course to my very good friend 
and colleague and my neighbor, Congressman Doug Ose, thank you. 
You are, of course, the one who talked to Chairman Mica and 
persuaded him to have this important hearing here which is so 
important to all of us here in northern California. Thank you 
very much.
    I, as many of you may know, represent 10 rural counties in 
northern California directly north of here that border the 
Nevada and Oregon border basically from Marysville, Grass 
Valley north. And we would like to think that our beautiful, 
pristine communities in northern California did not have a 
problem with narcotics or with illegal drugs, and specifically 
with methamphetamine, which happens to be the drug of choice in 
our area. We wish that were not the case. The fact is that it 
is. And one of the most important reasons that it is so 
important to be having this hearing, this congressional hearing 
here, is to make people aware of just how serious this problem 
is even in our own beautiful, rural, pristine communities. This 
is not just a problem of the inner city. It is not just a 
problem of Los Angeles, New York, Chicago. This is a problem 
even here in northern California. So I want to thank each of 
you, particularly those who have come out from our counties 
here just to the north, to help not only this committee, which 
ultimately will give recommendations on hopefully expanding the 
HIDTA Program into our other areas here in northern California, 
but also to the Congress and also to our own communities of how 
serious this challenge is. So that we can all begin more 
working together unitedly to take this incredible problem--take 
the bull by the horns and begin to turn it around.
    So with that, again I thank you, and I look forward to our 
witnesses and to the hearing.
    Mr. Mica. Thank you for your opening statement and comments 
from all of our Members this morning. We are going to turn now 
to our first panel of witnesses. The first panel is Ms. Raelyn 
Ruppel. She is an El Dorado County resident. Dr. Jorge Ayala, 
superintendent of the Yolo County Office of Education. Ms. 
Susan Webber-Brown, coordinator of the Drug-Endangered Children 
Program. And we have--is it Lieutenant Larry Saunders?
    Mr. Saunders. Yes.
    Mr. Mica. And he is the tactical commander of the Narcotics 
Gang Division. In a minute, I will yield to our members for 
introduction of these individuals.
    Ladies and gentlemen, this is an investigations and 
oversight subcommittee of Congress. In that capacity and for 
that responsibility, we do swear in all of our witnesses. So if 
you would please stand at this point. Please stand and be 
sworn. Raise your right hands.
    Do you solemnly swear that the testimony you are about to 
give before this subcommittee of Congress is the whole truth 
and nothing but the truth?
    Witnesses answered in the affirmative.
    I might also point out in addition to swearing our 
witnesses as an investigative panel, we do have a procedural 
method that we follow in conducting these hearings. We allow 
you approximately 5 minutes for your oral presentation. Upon 
request, we will by unanimous consent submit for the record, 
and it will be part of the record in this congressional 
hearing, additional lengthy statement and background material 
or data that you think is pertinent to the hearing today. So 
that is how we will proceed as we begin. We will also suspend 
questions until all of you have given your opening 5-minute 
verbal testimony to this subcommittee.
    At this point, for the purpose of introduction, let me 
yield to my colleague, Mr. Ose. I think he is going to have 
some comments of introduction on the witnesses. Mr. Ose?
    Mr. Ose. Thank you, Mr. Chairman. I am a little curious 
about something. I saw a group of young people come in here. Is 
there a high school civics class in the room? Welcome. I saw 
some sitting here along the wall. I am very pleased to have you 
before our subcommittee today, particularly the students. 
Hopefully, this will be a good experience to see how the 
government does operate. Thank you for coming.
    First of all, I want to introduce Raelyn Ruppel, who is a 
former user of some of the material we are going to be talking 
about. I want to make sure she understands that we appreciate 
the challenge that you faced up to, and we welcome you today.
    Dr. Ayala has been a good friend. He is the superintendent 
of Yolo County Office of Education. He and I have visited a 
couple of schools together and had the opportunity to interact 
with young people across this history. He is responsible and 
has oversight--it is interesting, everybody has got oversight 
here. We have oversight at the national level. Dr. Ayala has 
oversight in terms of the county school districts as well as 
the--you are involved with the Drug Court Program too, if I am 
correct.
    Dr. Ayala. To some degree.
    Mr. Ose. Ms. Webber-Brown has come down from Butte County, 
if I am correct.
    Ms. Webber-Brown. That is correct.
    Mr. Ose. She is actually a constituent of Wally's. I am 
kind of stealing your thunder here, Wally. She has some very 
striking testimony, if you will, about the impact of drugs on 
young children in particular. You have a video you are going to 
share with us?
    Ms. Webber-Brown. Hopefully someone has it here.
    Mr. Ose. OK. And the program that she runs, the Drug 
Endangered Children's Program, provides a comprehensive system 
to help children who are basically existing within a drug 
environment. She coordinates with law enforcement at both the 
State and local level, interacting with District Attorneys and 
fire departments and social service agencies. So we certainly 
appreciate your coming.
    My good friend Lieutenant Saunders from Sacramento. I 
cannot say enough--I mean, I want to make sure I explain this 
correctly. My interaction with the Sacramento County Sheriff's 
Department has been remarkable. These are the people who put 
their lives on the line every day. They go into situations to 
try and cure a problem that you and I would more than likely 
shrink from, and they do it day after day after day. Lieutenant 
Saunders and his people in the Narcotics Bureau are just doing 
a remarkable job, and I certainly appreciate it. I may have 
told you that Sheriff Blanas, who is on his way--I don't see 
him in the crowd. When he gets here I want to--if he is able to 
join us, I want to make sure I recognize him too. So, Larry, 
thank you.
    Mr. Saunders. Thank you.
    Mr. Ose. With that, Mr. Chairman, I will give it back to 
you.
    Mr. Mica. Thank you for the introductions. I would now like 
to recognize our first witness this morning, and that is Ms. 
Raelyn Ruppel, a resident of El Dorado County. Welcome.

     STATEMENT OF RAELYN RUPPEL, EL DORADE COUNTY RESIDENT

    Ms. Ruppel. Hi. My name is Raelyn Ruppel, and I am 19 years 
old. I have been in recovery since February of----
    Mr. Mica. Ms. Ruppel, you might pull that microphone just a 
little bit in your direction. Thank you so much.
    Ms. Ruppel. I have been in recovery since February 1997. I 
am 16 months clean and sober. I started drinking in eighth 
grade when I was 13 years old. Alcohol was easy to get, because 
I stole it either from my parents or from my friends' parents. 
I had older friends who would also buy it for me. I could also 
buy it from the liquor store off Madison Avenue in Orangevale. 
They never asked for ID from anyone.
    I got into drugs in my junior year at Oakridge High School 
in El Dorado Hills. I smoked pot and did acid a few times. I 
could get drugs every day at any time. I bought it at school on 
a daily basis from people I knew who dealt. It was incredibly 
easy to buy drugs at Oakridge. Just look around the quad, find 
the guy, walk over and hand him money, and he slips you a bag.
    Smoking weed became an everyday occurrence for me very 
quickly.
    I started getting in trouble from school authorities and 
from my parents on a regular basis. I also started getting 
incredibly depressed, to the point of being suicidal. My 
parents started sending me to a therapist and they got my 
school counselor involved because at this point I was failing 
my junior year. I was diagnosed as being clinically depressed. 
I was prescribed Prozac and started taking that on top of all 
the drugs and alcohol I was already consuming.
    I was put into a special program at school for emotionally 
disturbed kids, and this enabled me to get rid of a bunch of 
detentions and Saturday schools that I had accumulated. I was 
able to change my classes into easier ones and erase all of my 
failing grades. Being labeled as clinically depressed, I had an 
excuse for all of my out-of-control behavior. I never related 
what was happening in my life to my drug use. Nobody knew about 
my drug use, and they never pushed the issue because we had an 
answer to the problem. I had clinical depression.
    I kept doing drugs and I kept getting worse. One day, I 
tried to commit suicide. A friend called the cops and I was 
taken to Heritage Oaks Mental Hospital in Sacramento. There, I 
was diagnosed as being bipolar. My parents transferred me from 
there to a rehab in San Diego called Vista. It was there that I 
was introduced to Alcoholics Anonymous and Narcotics Anonymous. 
I stayed in that rehab for about 2\1/2\ months. I turned 17 
there. I came home and went to AA and 4 months later I 
relapsed. I had known some people in AA who had gone to 
treatment at this place called the Messenger Clinic. I decided 
to go there because I knew I needed something more than just AA 
and NA. My parents paid for it, and I went for 2 years from 
September 1997 until I graduated in August 1999. I went 4 
nights a week for 3 hours a night, Monday through Thursday.
    The director of the clinic, Tom Hills, suggested that I 
might not be bipolar. He urged me and my parents to get me off 
all the medications I had been taking. I got off all the 
medications I was taking and I was fine. I was misdiagnosed as 
being bipolar. I did not have that disease at all. The bottom 
line is I am just a drug addict. I had been taking all sorts of 
medications that I never needed. I have seen this a lot in 
addicts and alcoholics being diagnosed with mental disorders 
that they do not have, all because society would rather have 
someone be bipolar or have depression than be addicted to crank 
or heroin or marijuana. It is more socially accepted.
    I had been at the clinic for 6\1/2\ months when I relapsed 
again. I relapsed with a friend of mine that was also attending 
the clinic. This time I started doing crank. Crank was also 
easy to get. My friend had friends who dealt it. One phone call 
and about 30 minutes to an hour later and we would have a sack. 
I could get it whenever and as much as I wanted. It was so easy 
that one time my friend and I were calling our dealer from a 
pay phone in Roseville and this guy overheard us talking about 
drugs. He asked us if we were looking for coke, and I said, no, 
crank. He told me he knew a house where they sold it and he got 
in my car and took us there. I bought $100 worth of crank that 
night.
    My friend and I ran away that night and went to 
Bakersfield. My friend used to live there and she had a few 
connections down there. Not knowing the town, I could still 
just as easily as if I were at home get drugs. Anything I 
wanted from pot to prescription pills to acid to heroin I could 
get. I stayed down there for a week and came back home. I got 
back into the clinic in recovery.
    I relapsed one more time, 6\1/2\ months later. This time I 
started doing coke. A friend of mine knew some coke dealers and 
we dropped by their house and got hooked up. Coke was as easy 
to get as any of the other drugs I had ever done. Another 
example of the accessibility teenagers have to get alcohol is 
this. One night, my friend and I drove to a bar and my friend 
talked to some guy who was totally drunk and told him we would 
give him a couple of beers if he would come with us to 7-11 and 
buy us alcohol. The guy got in the car, we drove to 7-11 and he 
bought us a couple of 12 packs. We gave him two beers and drove 
him back to the bar and we were set for the night.
    About a week later, I got back in recovery and have been 
clean and sober ever since. That was October 24, 1998. I was 
able to get treatment for my disease pretty easily. I had 
parents who were willing to pay for it. It is not that easy for 
a lot of people. I mean, there are quite a few treatment 
facilities in the Sacramento area, but only a handful that are 
really good. But they all cost a lot of money. If you do not 
have money or health insurance that will cover it, you have 
only one resource, AA and NA. Don't get me wrong, AA will work. 
But the thing is, I am a chronic relapser. I needed more of a 
strong foundation and intensive treatment than AA has to offer. 
AA is what I do to stay sober now, but the Messenger Clinic is 
what gave me my foundation.
    Staying in recovery is not always an easy thing. I have had 
a pretty difficult life for the last 16 months. I had two 
roommates who went back to using while they were living with 
me, and I ended up having to kick them out. My mom was 
diagnosed with cancer a little over 2 years ago, and 2 months 
ago she passed away. I have stayed sober through her being very 
sick and her dying. Recovery has been the best thing that has 
ever happened to me and the greatest accomplishment. Many 
addicts and alcoholics do not make it. They die out there. I 
just happen to be one of the chosen ones. Thank you.
    Mr. Mica. Thank you for your testimony, Ms. Ruppel. I would 
like to now turn to Dr. Jorge Ayala, who is superintendent of 
the Yolo County Office of Education. Welcome and you are 
recognized.

   STATEMENT OF DR. JORGE AYALA, SUPERINTENDENT, YOLO COUNTY 
                      OFFICE OF EDUCATION

    Mr. Ayala. Thank you, Mr. Chairman and members of the 
committee. Thank you for the opportunity to address this 
congressional field hearing on drug trafficking, interdiction 
efforts and efforts to reduce drug abuse among teenagers. On 
behalf of the Yolo County Office of Education and the Education 
System in Yolo County, I want to welcome you to our community 
and to thank you for your commitment to and interest in this 
subject of primary importance to all of us.
    As a lifelong educator, teacher, vice principal and 
principal and now superintendent, I will focus my remarks on 
drug use among the young. With more than 20 years of experience 
in our public schools, I have seen firsthand the damaging 
effects of drugs and alcohol abuse among our young people.
    Two factors have remained constant. Drug use among youth as 
a trend has not significantly diminished despite the good 
intentions and funding of any number of programs. If anything, 
the problem has become worse. And two, the deleterious impact 
on the lives of young people and their families has proven time 
and time again to be damaging, destructive and at times deadly. 
Studies on domestic violence, teen suicide and juvenile crime 
draw parallel conclusions. Ironically and sadly, our Nation 
mourns the death of one young first grader in a related 
situation in Michigan. One lost her life and the other is 
scarred for life.
    I will summarize in three sentences what I am going to 
speak about. We need to have comprehensive and sustained 
programs that address the child's developmental stages, culture 
and gender. Programs that are monitored for continuity and 
connectivity that incorporate the family. Drug and alcohol 
abuse and use are most often symptoms of deeper problems rooted 
in a lack of self esteem, dysfunctional family environments, 
peer group influence, and inappropriate societal pressures, 
including the mass media. Because of the clear relationship 
between drug and alcohol abuse and other factors in a child's 
life, it is essential to select methods of prevention, 
intervention and treatment that are holistic in nature and 
provide a child with tools necessary to resist destructive 
impulses and behaviors. Part of the selection process should be 
to mesh prevention and treatment agencies and strategies with 
development stages, culture and gender of a child.
    The DARE Program, which is Drug Abuse Resistance Education, 
is primarily in the elementary level. Beyond the elementary 
level, there is a patchwork of different programs that are 
available within Yolo County through the State.
    But consider some of the evidence. Teen focus groups in 
Yolo County recently identified drug and alcohol abuse as the 
greatest problem facing local youth. A local Healthstart grant 
survey recently identified drug and alcohol programs for teens 
as a primary issue. The California Safe Schools Assessment 
recently published by the California Department of Education 
demonstrates the correlation between substance abuse and age.
    But what about our adolescents? What happens after the 
primary grades? We have State of California requirements which 
are providing different programs to bring drug awareness to 
ninth grade primarily. Beyond that, we have a hodgepodge of 
different programs. We have the Friday Night Live Program, 
which has suffered from erratic program quality and is now 
almost non-existent. We have Every Fifteen Minutes by the 
California Highway Patrol which focuses primarily on teenage 
drinking and driving.
    Youth in Conflict courses at Woodland High School are 
voluntary. Woodland Reaching Out and Karing, called WROK 
locally, is an excellent program, but it is small in nature, 
130 students per year. It does bring in the family, which is 
important to any drug rehabilitation. The counselor has found 
that when kids suffer severe and direct penalties from their 
first offense and subsequent interventions, this can 
significantly have positive results reaching nearly a 90 
percent success rate. However, the same counselor reports that 
increases in drug referrals have been paced by increases in the 
tolerance level of such behaviors. Amazingly, much of the 
tolerance resides in the child's home atmosphere, where parents 
often look the other way as the child indulges in alcohol and 
other drug use. This lack of support undermines programs in 
schools. Zero tolerance policies at school are often marred 
with inconsistencies and lack of alternatives for behavior 
changes.
    We do have at the Yolo County Office of Education, in 
conjunction with the courts here in Yolo County, the Drug Court 
Program, in which students are directed to take specific 
courses in drug prevention. We have the Yolo Youth Academy, 
which is a partnership with the National Guard in which 
students participate in a variety of different activities, not 
necessarily directed to drug prevention. We are able to connect 
with youth.
    There is a multitude of remaining programs that exist, a 
patchwork in fashion. Tracking their success rate is difficult 
because there is no logical interface between them and school, 
and there appears to be virtually no outreach that is conducted 
in a systematic fashion for teens.
    Minority youth are disproportionately the majority in 
alternative schools, handed harsher sentences and dealt 
different consequences for the same offenses, meaning the 
school and community systems are not reaching these youth.
    There are community service programs. The Woodland Police 
Department has a diversion program which is in place today.
    Recommendations. I have 14 listed in my document. I am not 
going to go over the 14, but I would like to highlight 3.
    Bring into the home prevention strategies and emphasize the 
need for everyone in the family to avoid substance abuse. Rely 
on comprehensive approaches that recognize the 
interrelationship between substance abuse and other issues in 
the child's family. Effective methods would include a 
combination of information, skill development, community 
service, an emphasis on academic progress and achievement, 
mentoring, intervention and counseling.
    There is a use of overlap of approaches. Universal, those 
that reach the general population. Selective, those that 
specifically target at-risk kids. Indicated, those that are 
designed for youth already engaged in substance abuse or 
indulging in risky behavior.
    Obviously, any approach or initiative will take a 
sustainable commitment of time and dollars to be truly 
effective. Where we spend our money dictates our priorities. 
Fortunately, in this chaotic sea of modern life, there are many 
children who acquire the resiliency characteristics that allow 
them to wedge through these complexities into healthy, balanced 
and successful adulthood. What are these characteristics and 
how can we capitalize on the influence? We do have that 
knowledge. Creative, relevant and safe structures are needed to 
connect with all youth, especially the high risk children. 
Strategies must be flexible and have high and doable 
expectations. We must generate results from a small to large 
scale. We must apply some intensive services with 
differentiated approaches tailored to the child's strengths and 
needs.
    We know what doesn't work. We have scientific knowledge for 
what can work. By working together, we can make real progress 
on an issue that should be foremost on our national agenda. If 
children are our greatest asset, then why is the funding not 
there to save them. I encourage you to act in the interest of 
our youth, in the interest of our families, and in the interest 
of our Nation.
    Thank you.
    Mr. Mica. Thank you for your testimony.
    Now I would like to recognize Ms. Susan Webber-Brown, the 
coordinator for the Drug Endangered Children Program. Welcome 
and you are recognized.

  STATEMENT OF MS. WEBBER-BROWN, COORDINATOR, DRUG-ENDANGERED 
                        CHILDREN PROGRAM

    Ms. Webber-Brown. Thank you. Thank you for inviting me to 
speak at this very important hearing. I have been a DA 
investigator for 17 years, for the past 9 years on a special 
assignment as a detective with the Butte Interagency Narcotics 
Task Force. During this time, I have participated in over 200 
meth labs investigations and arrested hundreds of persons for 
meth related violations. This testimony is a summary of the 
detailed statement you have before you.
    You have very knowledgeable experts here today who will 
each tell you of the methamphetamine plague in the North State. 
They will say it is an insidious drug that is taking over the 
country. They will state that over 80 percent of the crime rate 
involves methamphetamine, and there are thousands of users, 
distributors and manufacturers who go undetected or who repeat 
a criminal behavior upon release from jail, and they are right.
    What I am here to talk to you about are the children, from 
newborn to teens, who have been lost in this country's drug 
epidemic. In particular, I am speaking of the children that are 
found by law enforcement at the scene of a drug house or meth 
lab who have never been recognized as the true victims of this 
drug war. For years, children have been overlooked as victims 
and simply discarded as an inconvenience to deal with. 
Generally when law enforcement were at the scene of a drug raid 
and children were discovered, they would simply be viewed as a 
hindrance by those officer attempting to deal with arresting 
and incarcerating their parents. It was and still is to a great 
degree easier for the officers to give the children to a 
neighbor, relative or friend.
    When first assigned to the task force, I would see children 
living in homes with drugs and needles and syringes lying 
about, no food in the house, dog feces everywhere, and 
oftentimes numerous containers of hazardous chemicals used in 
the manufacturing of methamphetamine. All over the State, 
children who are virtually eating, sleeping and playing in a 
meth lab are left unattended with no concern for their medical 
or psychological needs. No risk assessment is done.
    In 1993, the Butte Interagency Narcotics Task Force took a 
bold step forward in dealing with children from drug homes and 
labs. As a matter of protocol, we started a program which was 
later named the D.E.C. Program for Drug Endangered Children. 
This is a multi-agency team to ensure the safety and well-being 
of drug-endangered children. Simply, the narcotics unit has a 
CPS worker and part-time deputy district attorney assigned to 
the team.
    In a county where the seizure of meth labs has increased 
from 23 labs in 1993 to 45 labs seized in 1999, per capita we 
rank each year in the top three counties statewide for lab 
seizures. Of the more than 601 children we have detained, 162 
of those children were removed from meth labs. In November 
1994, we began obtaining urine screens obtained on all children 
detained from drug homes; 14 children tested positive for 
methamphetamine during an 18-month time period; 8 of those 
kids, and the remaining 6 were from secondhand meth smoke.
    From the start of the D.E.C. Program, our goals have been 
to rescue children from unsafe environments, improve the safety 
and health of drug-exposed children by providing appropriate 
services, hold parents accountable for their actions, improve 
the community response to these children, and establish a 
consistent response from law enforcement and Social Services. 
With the exception of Butte County, the concept of children as 
victims of the methamphetamine epidemic was not addressed until 
1997, when the Office of Criminal Justice and Planning issued 
grants to four counties to implement the D.E.C. Program modeled 
after Butte. In May 1999, three additional counties were funded 
for a total of seven funded D.E.C. response teams. They are 
Butte, Los Angeles, Orange, Riverside, San Diego, San Bernadino 
and Shasta. And of particular note, these grant funds enable 
one team in each county to work D.E.C. cases, but those funds 
are not sufficient to adequately address the problem. And these 
grant funds terminate September 30, 2000, this year, with no 
anticipated continued funding.
    The life of a drug-endangered child, of the 600 children's 
names and faces that I have seen, all are different. But each 
story is the same. One would think that 9 years later with 
hundreds of suspects arrested and countless doors kicked in and 
the writing of thousands of reports that I would grow callous. 
But upon entering the bad guy's house again and seeing those 
small round innocent eyes look up at me saying finally someone 
came to save me, I turn to marshmallow. I don't have to make up 
stories or use the same photographs or tell the worst of the 
worst. They are all bad. The yard is covered with garbage, old 
bicycles, toys and rusted car parts. Three or four dogs run 
into the house or aggressively approach. Inside, the house is 
dark with no electricity. The stench of rotten food, animal 
urine and feces and soiled diapers permeate the house. Chemical 
odors irritate my nose and eyes. We fumble down hallways and 
bedrooms, stepping on filthy clothes and debris. The children 
are startled when a flashlight shines their way. They are 
sleeping on soiled mattresses with no sheets or blankets. They 
slept in their clothes for the third day in a row, haven't had 
a bath in days and can't remember when they last ate. They 
rarely attend school due to lice infestations, and cockroaches 
have become their pets. The children draw pictures for me of 
mommy's methamphetamine pipe and show me bruises where mom's 
boyfriend hit them. The oldest child comforts the oldest 
sibling and is obviously trying to parent. None of the kids cry 
or for that matter show any emotion at all. They exhibit a 
classic attachment disorder. Methamphetamine packages and small 
clear baggies are lying on a corner table next to a 
methamphetamine pipe with residue and scales. The oldest girl 
asks if she can take a bath and wash her hair when she gets to 
a new home. She starts to cry when she asks if her brother and 
sisters can all be placed together. Because of their 
environment and drug exposure, these children have learning 
disabilities, are behind in school, are laughed at and 
ridiculed because of their appearances, and they are the school 
dropouts, drug and alcohol users, physical abusers, and most 
have lifelong problems. This is learned behavior. It will be 
repeated behavior and it will produce our future felons if we 
don't make a difference in their lives. The problems are 
society-based now, but often stem from influences from the 
home. Children's struggles in schools often stem from problems 
in the home. Where parents spread their criminal conduct into 
the lives of their children, the parents conduct must be 
addressed as would any other crime. Whether it is use, sales or 
manufacturing, methamphetamine destroys children's lives, 
future and health. Children living with methamphetamine users 
and cooks cannot compete in school, are inhibited socially and 
learn criminal behavior. To improve their chances, intervention 
must occur. Cooperate efforts from law enforcement, CPS and 
prosecution protects the welfare of these children while 
ensuring public safety and benefit the community as a whole.
    Thank you.
    [The prepared statement of Ms. Webber-Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T6900.001
    
    [GRAPHIC] [TIFF OMITTED] T6900.002
    
    [GRAPHIC] [TIFF OMITTED] T6900.003
    
    [GRAPHIC] [TIFF OMITTED] T6900.004
    
    [GRAPHIC] [TIFF OMITTED] T6900.005
    
    [GRAPHIC] [TIFF OMITTED] T6900.006
    
    [GRAPHIC] [TIFF OMITTED] T6900.007
    
    [GRAPHIC] [TIFF OMITTED] T6900.008
    
    [GRAPHIC] [TIFF OMITTED] T6900.009
    
    [GRAPHIC] [TIFF OMITTED] T6900.010
    
    [GRAPHIC] [TIFF OMITTED] T6900.011
    
    [GRAPHIC] [TIFF OMITTED] T6900.012
    
    [GRAPHIC] [TIFF OMITTED] T6900.013
    
    [GRAPHIC] [TIFF OMITTED] T6900.014
    
    [GRAPHIC] [TIFF OMITTED] T6900.015
    
    [GRAPHIC] [TIFF OMITTED] T6900.016
    
    [GRAPHIC] [TIFF OMITTED] T6900.017
    
    [GRAPHIC] [TIFF OMITTED] T6900.018
    
    [GRAPHIC] [TIFF OMITTED] T6900.019
    
    [GRAPHIC] [TIFF OMITTED] T6900.020
    
    [GRAPHIC] [TIFF OMITTED] T6900.021
    
    [GRAPHIC] [TIFF OMITTED] T6900.022
    
    [GRAPHIC] [TIFF OMITTED] T6900.023
    
    [GRAPHIC] [TIFF OMITTED] T6900.024
    
    [GRAPHIC] [TIFF OMITTED] T6900.025
    
    [GRAPHIC] [TIFF OMITTED] T6900.026
    
    [GRAPHIC] [TIFF OMITTED] T6900.027
    
    [GRAPHIC] [TIFF OMITTED] T6900.028
    
    [GRAPHIC] [TIFF OMITTED] T6900.029
    
    [GRAPHIC] [TIFF OMITTED] T6900.030
    
    [GRAPHIC] [TIFF OMITTED] T6900.031
    
    Mr. Mica. Thank you for your testimony. I would like to 
recognize our last witness on this panel, Lieutenant Larry 
Saunders, who is the tactical commander of the Narcotics and 
Gang Division.
    Welcome, you are recognized, sir.

    STATEMENT OF LARRY SAUNDERS, TACTICAL COMMANDER OF THE 
                  NARCOTICS AND GANG DIVISION

    Mr. Saunders. Thank you, Chairman. We at the Sacramento 
County Sheriff's Department are committed to do whatever is 
necessary to reduce the effects illicit drugs have on our 
communities. We see on a daily basis that manufacturing and 
trafficking in these substances increases crimes in our 
communities and pose a great risk to our youth.
    I have personally and professionally witnessed the tragic 
effects of methamphetamine. As the tactical commander for our 
agency, a large percent of our squad and the hostage negotiator 
call-outs that we respond to involve the use of drugs, mostly 
methamphetamine. Many of the suspects involved in these crises 
are in fact under the influence of illicit drugs, mostly 
methamphetamine. Many times these call-outs involve children 
who are being subjected to violent behavior that the suspects 
display during these type of situations. Sometimes the children 
are used as hostages as these drug users try to escape capture. 
We have seen too many children seriously hurt and killed by 
people under the influence of illicit drugs.
    It is only through prevention, education and aggressive, 
no-tolerance policies in our communities that we can be 
successful in our efforts.
    The Sheriff's Department is happy to be the lead agency in 
a Central Valley HIDTA team. This team named SAINT, for the 
Sacramento Area Intelligence Narcotics Task Force, will 
concentrate their efforts on identifying methamphetamine and 
other drug traffickers and trafficking organizations. They will 
then pass along that intelligence in a partnership with other 
local investigative teams.
    This past weekend, the SAINT HIDTA team did exactly that, 
resulting in the disruption of a major methamphetamine 
operation in Sacramento County. The results were the 
confiscation of 13 pounds of methamphetamine, $55,000 in cash, 
numerous weapons and the arrest of at least five suspects. We 
are encouraged by this operation and look forward to the HIDTA 
Program as a viable method to stem the transportation and 
distribution of illicit drugs into the Central Valley. An 
expansion of the HIDTA program further north would be an asset 
to the Central Valley if additional funding could be 
appropriated. I encourage all of you to explore this option.
    Along with the HIDTA Program, the Sacramento County 
Sheriff's Department and the Board of Supervisors of Sacramento 
County has instituted three outstanding and effective programs 
in an effort to forge positive ties with our youth in several 
areas.
    The first program is the School Resource Officers Program. 
These officers work on the high school campuses Monday through 
Friday in a non-traditional law enforcement method. They mentor 
students, form positive relations with staff and school 
children.
    The second program is the Youth Services Officers that we 
have. They are assigned to the patrol districts and work in 
concert with the School Resource Officers on matters such as 
truancy, child abuse, and other issues that contribute to the 
kids' failure to attend school.
    Training for both these programs involves at least a 40-
hour comprehensive course with emphasis on interacting with 
students.
    Our third program that we have that is very effective is 
the State Schools Program. The Sacramento Sheriff's Department 
has enjoyed a longstanding relationship with the San Juan 
Unified School District to provide traditional law enforcement 
to all respective campuses in the San Juan District in grades K 
through 12. All programs emphasis a ``no tolerance'' policy 
involving drugs and alcohol on campus.
    We look forward to this cooperative effort to make our 
communities a safer place in which to live. Thank you.
    Mr. Mica. Thank you. We have a video I think that was going 
to be played now by Ms. Webber-Brown. Without objection, we 
will play that and also make a transcript of that a part of the 
record. So ordered.
    Mr. Ose. Mr. Chairman, if I might interrupt here for a 
moment. There are a couple of distinguished visitors from----
    Mr. Mica. Let me go ahead and play the tape first and then 
we will make the introductions.
    Mr. Ose. OK. Sure.
    Mr. Mica. Thank you.
    [Video tape is played.]
    Mr. Mica. Thank you. I would like to now recognize Mr. 
Herger for the purpose of an introduction.
    Mr. Herger. I would like to recognize several that are in 
the audience. One that will be on our next panel, our district 
attorney from Shasta County, Mr. McGregor Scott, who has been a 
leader on working in this area in Shasta County in the northern 
area. And also we have a Sheriff from Siskiyou County, which is 
up on the Oregon border, Sheriff Charlie Byrd in the far back. 
Charlie, if you would raise your hand up real high. Anyway, 
thank you both for being here. I am sure there are other 
constituents from our district. I am sorry, I am not 
recognizing you, but I want to thank all of you for being here 
at this very important hearing. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. I'd like to begin our first round of 
questions. I might say again for the witnesses, this is--maybe 
you have seen how we operate on C-Span in a congressional 
Hearing. But the purpose of this hearing, again, is to come out 
into this community and this area of our country and try to 
gain from you some insight as to the programs that we have at 
the Federal effort, our efforts, and how effective they are and 
how they can be improved. So that is the purpose of the 
hearing. Then take this back and try as an oversight and 
investigations subcommittee of Congress to see that those 
positive changes are made.
    With that in mind, first of all Congress is now spending 
somewhere in the neighborhood of $1 billion on a media 
education program. Ms. Ruppel, have you seen any of those ads 
that we have on television or radio or newspaper?
    Ms. Ruppel. For the methamphetamine abuse?
    Mr. Mica. Well, any anti-drug abuse?
    Ms. Ruppel. Yes, I have.
    Mr. Mica. You have. What is your opinion of them? Be honest 
and candid. This is important to us.
    Ms. Ruppel. They are striking, but I don't think that 
people----
    Mr. Mica. Would they make any difference?
    Ms. Ruppel. Well, the people that are using drugs, I don't 
think that you can scare them out of it. You know? So I don't 
know if they are necessarily making a difference to people who 
are already using methamphetamines.
    Mr. Mica. You testified that you--and I think your words 
were that there were a handful of good programs, treatment 
programs?
    Ms. Ruppel. There are a handful of good treatment programs.
    Mr. Mica. How would you determine what is--one of the 
things is that we have basically doubled the amount of money in 
treatment in the last 6 or 7 years. We are spending more than 
$3.2 billion on treatment programs just from the Federal level, 
and we are not certain what works and what doesn't. In your 
estimation, what works and what doesn't? What are the good 
programs that you have seen?
    Ms. Ruppel. There are, I believe, in-patient programs, 28-
day to 3-month programs around the area that seem to be helping 
people out.
    Mr. Mica. Did you experience private and public programs or 
just public operated? Both?
    Mr. Mica. AA and NA are public, I believe. The outpatient 
place I went to is privately owned, but it was a very well run 
outpatient program.
    Mr. Mica. Which is the most effective for you?
    Ms. Ruppel. I needed both. I needed both.
    Mr. Mica. And how would you describe any of the programs 
that aren't effective?
    Ms. Ruppel. I was living in a halfway house kind of 
transitional living called the Madison House. It was for people 
who were in recovery. A lot of parolees lived there. And this 
place didn't have any rules. It didn't have any rules. It 
didn't have the funding that it needed to have in place so that 
drugs were coming in and out of there on a daily basis. It was 
supposed to be the place where I was supposed to live in a safe 
environment, and it wasn't. You know, there are a couple of 
different transitional living places like that in the 
Sacramento area.
    Mr. Mica. Thank you. Dr. Ayala, you mentioned the two 6-
year-olds, one a victim, that we read so much about last week. 
From the information I have received, that 6-year-old that 
found the gun came from a split home. The father, I think, was 
in jail. And the living conditions were appalling. It was also, 
I guess, the site of a crack house. We just saw a very vivid 
portrayal of a 4-year-old being scalded to death through the 
violence of a methamphetamine situation. And you testified that 
the family--we have to have comprehensive programs for the 
family. I know you are a public educator, but how in heaven's 
name do we turn this thing around where these young people--
this witness has testified that there were 600 children you 
dealt with. In what geographic area is that?
    Ms. Webber-Brown. That is just in Butte County. That is 
just by seven agents that are assigned to the task force. It 
doesn't even encompass the entire county.
    Mr. Mica. With those figures for one area, and we see 
conditions that these children come out of, how in heaven's 
name does a local school district or State government or 
Federal Government deal with the deterioration of family to 
that degree?
    Mr. Ayala. It is a very complex question, and one that I 
don't have one answer to. But I do strongly feel the family 
needs to be included in any type of drug prevention 
rehabilitation program. As Ms. Ruppel said earlier, her family 
was involved. I think it is important that when we do create 
programs that a unit within those programs is incorporated 
dealing with family and educating family, not only on drug 
abuse but also how to understand and how to communicate with 
their children. You mentioned earlier the TV ads or the media 
ads. I think they address adults more than they address 
children. Children look at them and see that the adult is not 
reacting to the media message that is there and pretty much 
ignores it. I think what we need to have is a community-based 
program that reaches out to the parents. It is only a beginning 
with the DARE program in the elementary schools. But the 
stressful situations for children are beyond the elementary 
into adolescents when they are trying things out and 
experimenting. The support system kind of fades in the 
transition from elementary to middle school. And you can see 
the trend increasing in drug use as they go up the grades. I 
think we should not drop the ball. I think we need to have 
programs that do address children at every level. When I say 
comprehensive, I don't mean just drug-oriented programs. I also 
mean community-based programs where activities that are 
diversions to drug use are created. There is a connectivity 
with the community. They could be teen centers. They could be 
activities that are provided by the community with an emphasis 
on having the family and the child communicate.
    Mr. Mica. As a superintendent with education 
responsibilities, I think you are aware that we have tried to 
turn this situation around at the Federal level, where we have 
mandated and regulated so much that very little money actually 
got to the classrooms and the student and the teacher. We do 
have problems, I think, with the new majority in mandating 
additional programs. If we gave funds, additional funds, which 
is probably the best thing we can do to States; we are trying 
to get away from providing a lot of strings attached. What 
assurance do we have that this money will ever reach the local 
level for these programs that you talk about to avoid the 
patchwork approach?
    Mr. Ayala. I think there needs to be an agreement to how 
the program is to be assessed between the local entity and the 
government. And there needs to be some dialog about what the 
community consists of and the issues within the community. I 
think that needs to be tailored to the community versus a one-
program-fits-all that this government wants to provide. 
Accountability is a key factor. Once the agreement is made, 
then there needs to be a measurement. What is the results? What 
is the impact on the children? What is the impact within the 
home and in the community?
    Mr. Mica. Ms. Webber-Brown and Lieutenant Saunders, it 
appears that this region has a serious meth epidemic. From what 
you have described, we are looking at a very serious situation 
here, is that correct?
    Mr. Saunders. That is correct.
    Ms. Webber-Brown. Yes, that is correct.
    Mr. Mica. And I am not sure of the geographic area of the 
current HIDTA. I know Mr. Herger and Mr. Ose have talked about 
expanding that into this area. What do we have, about nine 
counties currently in the HIDTA?
    Mr. Ose. Mr. Chairman, there are eight or nine counties, 
the northern most of which is Sacramental County. There are no 
counties north of Sacramento that are presently included in the 
Central Valley area.
    Mr. Mica. Both of you would support expansion of the HIDTA 
to include the areas to the north?
    Ms. Webber-Brown. Yes.
    Mr. Mica. What type of money does the current HIDTA get? 
Lieutenant Saunders, are you aware?
    Mr. Saunders. I believe it is between $1.2 and $1.6 
million. And I feel that to increase the counties north, which 
I definitely support, I think would take more appropriations 
than we currently have.
    Mr. Mica. I heard someone, and I am not sure--I was trying 
to look through my notes--80 percent of the crime is meth-
related. Was that you, Ms. Webber-Brown?
    Ms. Webber-Brown. Yes, that is correct.
    Mr. Mica. Is that 80 percent of the crime--where, in this 
region or country or what?
    Ms. Webber-Brown. In Butte County.
    Mr. Mica. In one county?
    Ms. Webber-Brown. In Butte County. As well 90 percent of 
the referrals that come into Children's Services Division in 
reference to children with general neglect issues are drug-
related, specifically methamphetamines related.
    Mr. Mica. That is an astounding figure.
    Ms. Webber-Brown. It is astounding.
    Mr. Mica. Well, I have no further questions at this time. 
Mr. Ose, you are recognized.
    Mr. Ose. Thank you, Mr. Chairman. Raelyn, I want to come 
back to your testimony. I have two specific questions that I 
need to ask from you. As a parent--if we look around this room, 
there are a lot of parents here. How do we help our kids when 
they are moving from elementary to middle school and from 
middle to high school and they are asked, ``Do you want a 
joint'' or ``do you want a hit'' or ``do you need blow?'' How 
do we help them?
    Ms. Ruppel. I think my parents did the best that they 
could. But I think more attention needs to be paid toward kids 
in that area. Kids are either going to turn to drugs or they 
are not. I am not exactly sure how--I think more involvement in 
your child's life. More programs that you bring your kids to. I 
am not real sure.
    Mr. Ose. The other issue I wanted to talk to you about was 
the--Judge Mica mentioned it. The programs that are successful, 
what differentiates those, in your experience, that are 
successful from those that aren't?
    Ms. Ruppel. It could be the people that run them. I think 
that the outpatient clinic I was in was run very well. The 
transition living place I was involved in wasn't run very well 
at all. It is mostly who is running it and how they are running 
a program.
    Mr. Ose. Dr. Ayala, I know that you are going to submit for 
the record the 13 recommendations that you mentioned. You 
talked about an increased tolerance on everybody's part of 
inappropriate behavior. It is not just the public, but people 
accepting giving a kid a drink or what have you. Could you 
expand on that a little bit as it relates to your experience?
    Mr. Ayala. In my experience with high school and the 
``continuation''--alternative--high schools, there is a degree 
of acceptance of behavior. ``That is the way it is. We can't 
help it. There is nothing we can do. It is a family situation, 
not a school situation.'' Those types of thinking or those 
dimensions of thinking really create or increase the problem. 
And when we talk about zero tolerance here, one dimension is 
zero tolerance and the other dimension is turn the other way. 
When you have zero tolerance, there is also a skeptical belief 
that there is nothing to support it. There are no teeth in what 
happens with that child once that child is caught. And as one 
of the counselors mentioned in my report says, if we can make 
sure that that child is thrown the book at and the parent along 
with it, 90 percent of the time you will have a chance of 
success. Now turning the other way happens at home as well. 
When a child comes home stoned or a child comes home under the 
influence--stop it or don't do it anymore will not work. There 
is a lack of communication happening at the home. The same as 
at school. There is a lack of communication if the message is 
out there for zero tolerance and stop it, and there is nothing 
there to support or there is nothing there to connect with that 
student. I think what was said earlier kind of exemplifies it. 
It is who is on the other end providing the help that needs to 
make that connection and needs to understand the child and 
needs to understand the circumstances and provide concrete 
measurable types of programs or assistance that will bring that 
child in through incremental steps out of the drugs and into 
something more productive.
    Mr. Ose. When you have a family where you have a child who 
is using drugs of this sort and the child comes to school, do 
you have any statistical information about the impact in a 
classroom of having a child who is under the influence actually 
in the classroom, whether it be added costs or added time 
requirements? I am going to ask Ms. Brown the next question, 
which is if it is manifesting itself in the schools, her 
testimony about needing some degree of intervention to be much 
more readily available--I am going to segue from your answer to 
that question of hers. I tell you why I ask that question, if I 
may. It is that I have sat in on some of these truancy hearings 
where the child has a pattern of truancy and the law now exists 
where the parent can be held accountable for that child not 
going to school and actually prosecuted, if you will. And I am 
not trying to open the door or lead you in any particular way, 
but I wonder whether or not that is a fact that offers some 
measure of relief.
    Mr. Ayala. If a parent is held accountable for the child's 
behavior, as they should, then if there is a program to sustain 
that assistance by the parent and by the school system, then I 
think it is money well spent. Too often, though, there is only 
a program that is very limited. It addresses the issue at the 
moment and it looks like it has been solved. But if we take a 
look at how long this took for that moment to occur and how 
long it takes for us to solve that problem, there is quite a 
discrepancy between both moments. I think there needs to be 
sustainability, and through that there needs to be a connection 
with the child and the child's development.
    Mr. Ose. Ms. Brown, what about an intervention? When you 
talk about 601 kids and the 8 that tested positive versus the 6 
that don't.
    Ms. Webber-Brown. Actually, they all tested positive. It is 
just that eight came from meth labs and the others came from 
the secondhand meth smoke or meth environment. And I add that 
scores of kids have tested positive since that time from 
various scenarios. With methamphetamine residue on coffee 
tables and nightstands, with babies picking up meth pipes and 
putting them in their mouths. The intervention part of that for 
me is a lot different, coming from a different perspective. In 
conducting the criminal investigations, the majority of the 
time are because of the parents who are meth users and abusers. 
And we are taking these children out of the home as victims. 
With the program that we have currently, we are able to handle 
those children that we are currently detaining within our task 
force, but not county-wide. And that intervention is whereas 
before parents would be arrested for the drugs, they are now 
being arrested for child endangerment on every single case 
where we can prove and we are able to collect enough evidence 
of that. And that is where in my opinion as a law enforcement 
officer that parents need to be held accountable. So instead of 
just arresting them for the narcotics violations or the stolen 
car they have in their backyard or the illegal weapons they 
have, is to charge them with felony child endangerment. Detain 
those children and place them appropriately, hopefully with a 
relative. In Butte County, about 50 percent of the children are 
placed with relatives and about 50 percent of them are in 
foster homes. And then those children remain out of the house 
for at least a year. And during that time period, it enables 
Children's Services Division and Probation to work together to 
try to reunify. Many times that doesn't happen, but the goal is 
to reunify. And that is that parents have to drug test clean 
once a week. They have to go to parenting classes. They have to 
go to Narcotics Anonymous. They have to go to inpatient 
counseling, and they have to follow all the rules of the 
probation status, which works together with Children's 
Services. So the hope is that we return these children to drug-
free families. And if not, then they are in a better place.
    Mr. Ose. Butte County operates clearly under State law as 
it relates to family reunification.
    Ms. Webber-Brown. Correct.
    Mr. Ose. Are there things we could do to improve that law? 
Obviously, I am a Federal officer, so to speak. But suggestions 
that you might make that I could carry to some of my friends 
who serve in the State legislature?
    Ms. Webber-Brown. Actually, I think the new existing laws 
that were just placed with the fast tracking if there is 
ongoing criminal behavior, you know lengthy criminal behavior 
and they have had prior children detained if the children are 
under certain years of age. I don't really think, to me, that 
part of the program is working well. The biggest obstacle is 
having enough foster homes to place these children in. And then 
the other one is in most of the State of California, as well as 
across the United States, because I have been to at least five 
others doing training on drug-endangered children, is you don't 
have a good working relationship between law enforcement and 
Children Services Division. And that is primarily because law 
enforcement obviously have a completely different background 
than Children's Services. There has been a lack of response on 
Children's Services part. And because law enforcement is so 
strapped for financial dollars to pay overtime and so forth and 
just not enough dollars for law enforcement, you now have law 
enforcement on the scene of a meth lab or a drug home at 3 
a.m., with three officers waiting 2 or 3 hours for a CPS worker 
to respond. And that was the whole purpose of assigning 
somebody to our team. They paged out when we paged out.
    Mr. Ose. Mr. Chairman, you have been very generous with 
your time. I want to make sure and compliment Lieutenant 
Saunders for the great work that the Sacramento County 
Sheriff's Department on this recent meth bust, and I want just 
a short yes or no answer. I want to make sure I understand. The 
Sacramento County Sheriff's Department supports an expansion of 
the HIDTA north if sufficient resources can be found to fund it 
properly?
    Mr. Saunders. Yes, that is correct.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Mica. I recognize the gentleman from Indiana, Mr. 
Souder.
    Mr. Souder. I have a series of questions as well. 
Lieutenant Saunders, could you tell me are most of the labs you 
deal with, meth labs, small labs in the homes like were 
referred to or large labs?
    Mr. Saunders. In Sacramento County at least, most of our 
labs--we did over 30 labs this past calendar year--they are of 
the smaller variety. Occasionally, we get to the mid-level lab. 
I don't think we find all our labs, though. I am sure there are 
several large labs out there. This last year we just didn't 
find any. But we had over 30 labs and most of them were small.
    Mr. Souder. Is a small lab basically self consumption and 
small income? What constitutes where you would cross over?
    Mr. Saunders. No. When I am talking about small labs, I am 
talking about one that in one cook they can make 1 to 2 pounds 
of methamphetamine. So it is being distributed at that level.
    Mr. Souder. I don't have a concept. Does that mean it is 
regional within a section of Sacramento? Can that go beyond? 
Another question is how much is consumed within your HIDTA and 
how much is exported?
    Mr. Saunders. Those smaller labs are being consumed on a 
regional basis. This particular case I mentioned earlier was 
not involving a lab. That was involving a trafficking 
organization probably from Mexico. And we do have a substantial 
problem in that area in addition to our lab problem.
    Mr. Souder. Could you explain that once? When you say 
trafficking, are they trafficking in--are they converting it or 
are they just being a distribution point?
    Mr. Saunders. They are using it as a distribution point. 
And also what we found in this one last weekend with the 13 
pounds of meth, that a subsequent search warrant revealed a 
location that had extensive packaging material and the cut to 
dilute it and then it would be distributed from there. At this 
point, we are not exactly sure where all that methamphetamine 
was going, but that is what they were doing with that 
particular case.
    Mr. Souder. Do you know whereabouts it came from Mexico?
    Mr. Saunders. From talking to the supervisor on this thing, 
we feel it did have Mexican ties, yes.
    Mr. Souder. Thanks. Ms. Webber-Brown, on the--how many--you 
said parents are--they have a drug testing once a week and 
parental counseling and the goal is family reunification. How 
many parents successfully do this?
    Ms. Webber-Brown. Out of 35 families last year, only 4 
families reunified with their children at the end of the year.
    Mr. Souder. What is the primary reasons for failure? Is it 
the drug testing part or is it the failure to----
    Ms. Webber-Brown. That is a big--part of that, and a number 
of other things. Their drug is more important than their 
children or than reunifying with their children. Many of these 
parents had already lost children previous to these kids in 
Butte, some in other counties, adjoining counties. The 
methamphetamine has a hold on them, and it is just much easier 
to continue to find their next bag of dope than to go through 
all the steps necessary to reunify.
    Mr. Souder. Is there a process where rights become 
terminated so it can move to adoption?
    Ms. Webber-Brown. That is correct. The majority of our 
children are permanently adopted, especially all the children--
I have had a number of children who have been seriously injured 
as a result of methamphetamine. They have long term learning 
disabilities, and the majority of those children have been 
adopted.
    Mr. Souder. I mean not likely. I know the answer probably 
to my question. But you said some of these parents have had 
this occur before where they have lost their children.
    Ms. Webber-Brown. That is right.
    Mr. Souder. Does Child Protective Services notify a county 
when a child checks into school that a parent--they get the 
parents address that this is a potential problem coming?
    Ms. Webber-Brown. No, that is not happening.
    Mr. Souder. Is tracking possible? Is there that 
sophisticated a system? I mean after it happens, clearly you've 
found out.
    Ms. Webber-Brown. That can happen if the parents obtained 
the necessary transfer papers for the child when they left that 
school district and went to the other school district. Or if 
there was a way in which the schools communicated, yes. 
Certainly that could be accomplished.
    Mr. Souder. I have a few questions. I want to start first 
with Ms. Ruppel before I move to the superintendent. We are in 
the process within the next 30 to 60 days of moving through the 
Education Committee the Safe and Drug Free Schools Bill as part 
of the Elementary and Secondary Education Act. We have been 
working on this for a couple of years, and it is very 
controversial and very difficult. We had the original Drug-Free 
Program, which has had mediocre success. We added it to Safe 
and now we may add 21st Century Schools to this as well and 
include mental health. The question is, is there any anti-drug 
program left? But first, let me ask you, did you ever go 
through any anti-drug program at school? Any kind of prevention 
programs? Did they have school assemblies? Did they have the 
DARE program? Did you do any?
    Ms. Ruppel. I went through DARE in sixth grade. That was 
the only program that I can remember in school going through.
    Mr. Souder. That is the only thing you remember in anti-
drug education?
    Ms. Ruppel. Yes.
    Mr. Souder. What kind of impact did that have on you? 
Obviously you have had problems since then. But do you believe 
that would have worked better had you had a junior high and 
high school followup? Did it not have much impact at all? Did 
you think that is what square kids do?
    Ms. Ruppel. I can't say that the DARE program had any 
impact at all. The next year is when I started doing drugs and 
drinking.
    Mr. Souder. Did you get any signals out of your school that 
there would be any consequences? One other thing that struck me 
is you said you could get drugs every day at any time. Were any 
of those from students?
    Ms. Ruppel. Yes, that was from students.
    Mr. Souder. On school grounds?
    Ms. Ruppel. Yes.
    Mr. Souder. Had there been a drug testing program at your 
school, what do you think you would have done?
    Ms. Ruppel. If there had been a drug testing program?
    Mr. Souder. Yes, there is--we allowed in the 1989 Safe and 
Drug-Free Schools Act an amendment that--at that time, I was 
working for Senator Dan Coates and we put that in. And every 
single school in the country that has put that in, while it is 
not an ultimate solution, has had a dramatic drop in drug use 
each year. And I wondered what you would have done had you had 
a drug testing program that was random at your school.
    Ms. Ruppel. I probably would have gotten caught and 
somebody would have found out. There would have been some sort 
of interaction between my parents and the school. Because my 
parents and the school officials never found out that I was 
using drugs until I went into a mental hospital because of it.
    Mr. Souder. That was an extraordinary thing because at one 
of the high schools in my district, I meet with high school 
seniors whenever I can. And the student council president and 
vice president were very much against drug testing. Then some 
students started speaking out for it. When we got done, the 
superintendent and principal told me that every single student 
that had spoken up, several who had self-acknowledged that they 
had a drug problem and everybody against the drug testing 
hadn't had a drug problem. But the kids who had spoken up for 
drug testing, one of them got caught in an athletic program and 
it changed his life. The problem is that many people who are 
against drug testing have never abused drugs. It is one of the 
frustrations here. It is not to be mean. It is to try to figure 
out who needs the help. Twice you said that you came back after 
you had gone through the first treatment program and then you 
had--the first time you went away for 3 hours. Let's see, the 
first time you fell, you came back. What caused you to come 
back?
    Ms. Ruppel. My parents intervening.
    Mr. Souder. Was that the same thing the time after 
Bakersfield?
    Ms. Ruppel. Yes.
    Mr. Souder. Did you get--when you say your parents 
intervened, how did they find out?
    Ms. Ruppel. The last time I relapsed and came back, I was 
going to get caught in a drug test. Inside, I was dead. So I 
knew that I wasn't happy using it and I wasn't happy not using 
it. But I was worse using drugs, and I couldn't do it anymore. 
I came back on my own, but I also got drug tested that week and 
it came up positive for cocaine a day after I had told people 
that I had been using.
    Mr. Souder. If there hadn't been a drug test, do you think 
you would have told them?
    Ms. Ruppel. Yes.
    Mr. Souder. You were clearly wrestling with this, and you 
said now you have actually--that is terrible about your mother 
and that is a very moving story and you deserve tremendous 
credit for making it through this period. What other things 
happened that you haven't relapsed? What is different this 
time?
    Ms. Ruppel. Yes, it is different. I started becoming 
honest. I started doing the things that other people in rehab 
suggested.
    Mr. Souder. Why?
    Ms. Ruppel. Because I was tired of being sick. I was tired 
of using drugs. I was tired of relapsing and getting kicked out 
of my parents' house and trying to find places to live until I 
could move back in. I was tired of getting in trouble. I was 
tired of the way that drugs made me feel.
    Mr. Souder. Do you think we can actually be successful in 
treating until the person is tired and really ready to make a 
commitment?
    Ms. Ruppel. Sometimes. I think that if you have a teenager 
in your house who is using that parents have a lot of different 
options that they can take to help steer their child away from 
drug use.
    Mr. Souder. I thank you. I found your misdiagnosis 
extremely depressing myself in how it was used and I may do 
some written followup with you. Because as we try to zero in on 
this, you have raised so many different questions that 
challenge our assumptions of how we do that. If I could yet, I 
wanted to ask Mr. Ayala, you made several statements in your--I 
read through your written while you were also giving the 
verbal. It is something that I have raised for a long time. I 
think we do a great job of concentrating for the most part on 
anti-drug education when the kids are totally agreeable. Yes, I 
won't ever do drugs. And it is before they do junior high. Now 
partly we have done that because the junior high and high 
school programs weren't working very well. And when you get 
these negative stats back, then your funding gets cutoff. But 
in fact, I know we do, so this is a leading question--give 
schools this option? In other words, we don't say you have to 
use it for first to sixth currently. Why don't more schools use 
it for junior high and high school? And I grant in my district 
that most of it is driven down to junior high or below junior 
high.
    Mr. Ayala. I think you touched upon it, which is that we 
find success there. And also you can prove to some degree that 
you have reached students. But again, I think, that that is an 
age that would be agreeable anyway, and they are not into it 
primarily. They may live within a home that does have drugs, 
but the utilization of drugs at that age is not really 
happening. It is when they reach the secondary level. The 
transition becomes extremely difficult from a self-contained 
environment to one where it is fragmented in different 
disciplines. Just as a point, I think when those students who 
do get caught, that is just the tip of the iceberg. If you 
multiply the number who get caught times 1,000, you are 
probably more accurate. I think the stats when you survey 
students are fairly accurate. You find more students utilizing 
drugs at every level, particularly it increases as they go 
higher up into education. The zero tolerance you mentioned and 
the drug testing, I think it is a great idea. But I think the 
parent needs to buy into it. I think drug tests need to be made 
available at no cost to parents who wish to help their 
children. It is extremely expensive to go through drug testing 
every time. Having it at school as a rule is another one of 
those one-fits-all systems. I think that the family needs to be 
drawn in as a critical component. The family is not in the 
school itself. And for the most part, particularly secondary, 
there aren't that many family members participating there. The 
numbers dwindle once they are beyond elementary.
    Mr. Souder. Well, first let me say I actually had a number 
of amendments that have become law on family involvement, and I 
am really strong for family involvement. What we just heard, 
though, is only 4 of the 35 in her case that family members 
were really at all interested in the kids versus the 
methamphetamines. One of the big problems that we have here is 
that while we should encourage that and certainly exhaust it, 
the fact is that as the families break down in our society, the 
schools become the local parents even more. Schools are very 
uncomfortable with that. Your primary goal is education, but it 
is tough to educate if the system is broken. And one of the 
difficult things--without getting--I want to move to one other 
question, so I don't want to get on drug testing heavily here. 
But it is random. You can't do uniform drug testing unless it 
is random. And in fact then once you have a history of a 
problem, you can do the drug testing. One of the most 
controversial things happened in Michigan, and you have eluded 
to it in about two or three different ways in your testimony. 
It is how can you simultaneously target but not discriminate. 
Because high risk populations tend to be concentrated in places 
where either there is an education level lower or there is a 
family composition area that is different or a past criminal 
record that is different. Now in different areas, that will mix 
out differently as to who that impacts. But it is certainly a 
targeting question. In Michigan, they didn't want to label the 
child who was the killer. You have a reference in here that in 
fact kids are treated differently in court based on minority 
background often from those who are of an Anglo background. 
Often, quite frankly, because of either sometimes 
discrimination, which I will grant, and maybe even more than 
sometimes. But other times because of family composition and 
income levels, where the parents actually will come and do an 
investment. It is not just discrimination. How do you and the 
superintendent propose that we try to get into this problem. 
Because the buzz word is target, yet targeting means making 
decisions that involve the word discrimination. Not necessarily 
racial. I am not talking about that. Income, education and so 
on. How do we balance how to target without discriminating?
    Mr. Ayala. I think when you are dealing with at-risk 
families, that when the target is to assist them, that it 
becomes a community effort versus one component, which may be 
the courts, law enforcement or education and the schools. It 
needs to be unified. I know in Yolo County some of the courts 
are working on family unity. When they bring in a youth, they 
also bring in the family. The family is involved in a variety 
of different malfunctions. It is a difficult question you've 
asked. I don't have an answer for it. But I think that we need 
to truly believe that these families can be helped. And I think 
that if we turn the other way, as sometimes happens in schools 
and in the family, and say ``that is the way it is'' and ``they 
are never going to come out of it, there is no way.'' I think 
we are shooting ourselves in the foot when we come to that. The 
family unit is an important component, but it is one portion of 
it. The other is in the school systems themselves there are 
excellent programs run by individuals who have their heart in 
the right place. Who have the energy beyond their school day to 
do other types of activities for youth, knowing that that is 
connecting and that is bringing them in. Even though the family 
may be dysfunctional. And these are the programs I think we 
need to support and bring to the limelight. I think we need to 
unify more readily those types of programs that are there that 
are working for individual youth.
    Mr. Souder. Thank you very much. And just for the record, 
while I propose zero tolerance in the regular school system, I 
voted against legislation that results in mandatory expulsion 
and just turning these kids on the street. We have to have 
alternative schools and alternative solutions. Because putting 
them on the street doesn't solve anything.
    Mr. Ayala. If I may comment on that. I believe zero 
tolerance is the first step. What happens after that is the 
most critical part. And I don't think we have enough programs 
to sustain zero tolerance. Thank you.
    Mr. Mica. I now recognize Mr. Herger for questions.
    Mr. Herger. Thank you, Mr. Chairman. I think we are 
beginning to get a feel for the magnitude of this problem. It 
is a major issue. I served for several years on a then Select 
Committee on Narcotics Abuse and Control, and I think it is 
becoming more apparent that so much of our challenge is just 
trying to get hold of this, trying to determine the scope of 
it. Then we need to find out or identify those programs so we 
can begin to make a difference. And I think certainly, Dr. 
Ayala, you have mentioned several of them that I have noted. 
Just connecting and bringing in the family and doing all of 
these areas are certainly what we have to go after. And 
reminding ourselves, we are never beat until we quit. Again, 
this problem seems so overwhelming. It is real easy or 
comfortable for us, I think, to try to put it under the carpet 
and not think about it. But the fact is we have to be aware of 
it and we have to be thinking about it.
    So I thank you.
    Mr. Ayala. You are welcome.
    Mr. Herger. Ms. Webber-Brown, I want to thank you for your 
involvement and the time you spend. I believe just a week ago 
we spent about an hour in my office in Chico on a Saturday 
afternoon, you and your husband. I thank you for sharing with 
me at that time. As you mentioned then, really the program that 
you are working on, as I understand it, is really just a pilot 
program. It is not something that would seem so basic as 
working with these children and as horrendous as this filmstrip 
that you showed us, the video.
    Ms. Webber-Brown. Correct.
    Mr. Herger. And the incredible dangers that we see and the 
horrendous life of the young children that are living within 
these homes is really an aspect that in the past I don't know 
if we have been that much aware of and dealing with. It is more 
the interdiction as it comes in and treating it when it is here 
or education. But the fact of trying to work with these young 
children was really an eye opener to me. If you could just tell 
me how you feel the success rate has been in this Drug-
Endangered Children program that you work in. If you could tell 
us a little bit about that and how it is working and what it 
looks like in the future for this program that you are involved 
with.
    Ms. Webber-Brown. It is extremely successful for rescuing 
the children. And that was my whole goal when I started it in 
1991 unofficially. And then 1993, it became official and was to 
me real simple and something that should have been done across 
the country, similar to domestic violence. When domestic 
violence became such an issue that it was across the Nation. 
The same thing with these children. And we are not really just 
talking about children in meth homes but all drug homes who 
were easily left behind. And the reason for that in my opinion 
was myself as a police officer having tunnel vision. Being 
trained to go in and look for drugs and paraphernalia and 
assets and evidence and seize those things. And children were a 
nuisance initially. And it was easier to pass them off to a 
friend or neighbor or relative. And then when realizing that we 
would be back there in 6 months or 3 months or 2 weeks and 
those kids would be back in the same filthy conditions and the 
same environment, and we were doing nothing to help them. So 
for Butte County, the program has been extremely successful.
    In short, we went to the Office of Criminal Justice and 
Planning in 1995 and said Butte County is real small compared 
to the rest of the State and we have a small number of meth 
labs compared to the rest of the State--L.A., San Bernadino and 
a number of other places. There must be thousands of children 
left in these homes with nothing being done. And a study was 
conducted by the Department of Justice and that in fact was 
occurring. And Office of Criminal Justice provided moneys from 
their Burn grant funds from OCJP to help participate in funding 
these seven counties--four initially and then the other three. 
But my concern now is that those moneys go away in September, 
and that we are not going to abandon our program certainly, but 
we are not going to be able to do what we have been doing with 
it because we won't have the resources in order to do that. And 
then we are being inundated with requests from other States 
that are having huge meth problems as to what to do with their 
children that they are finding and how do they implement that 
with no resources available.
    Mr. Herger. So this program working with the children 
within these families where the meth labs are is something that 
was pretty much started with Butte County?
    Ms. Webber-Brown. Yes, it started in Butte.
    Mr. Herger. And I think you mentioned that you have 
actually been asked to go to some other States to share the 
program with some of them?
    Ms. Webber-Brown. Right. Oregon, Washington, Nevada, Utah, 
Washington, DC, and several others that I just haven't had the 
time to go to.
    Mr. Herger. Well, thank you. Something else I was concerned 
with when we were visiting was your pointing out that this is a 
problem that really we are not that much aware of. That we are 
becoming more aware of it, at least to the degree that it is a 
problem. And I believe you mentioned that if we had programs 
like this in some other areas that we would see how widespread 
it perhaps is. I think you used the number of 600.
    Ms. Webber-Brown. Right.
    Mr. Herger. And was that just for Butte County?
    Ms. Webber-Brown. Yes. 601 actually as of last week.
    Mr. Herger. Would you think there would be a corresponding 
number for adjoining counties if we had a program like this?
    Ms. Webber-Brown. I am certain of that. In the adjacent 
counties--for instance, Yuba and Sutter Counties just to the 
south had 44 labs in 1999, this past year. They have no Drug-
Endangered Children Program in place. They do not have a CPS 
worker assigned to their narcotics officers. And they do not 
have a protocol in place. And just as an example, a year ago we 
had a meth lab in Butte County which led to search warrants in 
Yuba County, just over the line. We had 10 kids in two 
structures in a meth lab that were not detained and no program 
in place in that county in which to deal with those children.
    Mr. Herger. And unless there is future funding, this 
program will terminate in September.
    Ms. Webber-Brown. Or diminish a great deal.
    Mr. Herger. Lieutenant Saunders, my colleague and friend, 
Congressman Ose, asked a couple of times some questions about 
perhaps a need that we have of expanding the program that you 
are doing and working so well on and leading in some of the 
counties to the south of us perhaps in our northern California 
areas. I have a sheriff, Charlie Byrd, who I introduced 
earlier. I was just in a meeting with him as a matter of fact 
in Yreka here just on Saturday evening. The sheriff made it a 
point to come up to me and mention, even though he wasn't 
testifying here, of how important this was up in their county. 
That he knew of the program going on in Shasta County and 
Butte, but that he wanted--he was asking that we not forget 
about him and not forget about them and their families and 
their problem up there. I am sure that he is speaking for all 
our adjoining counties. So I am wondering if--I believe you 
mentioned you have a budget of--I forget, $1.6 million or 
whatever that you mentioned. Do you have any idea what it would 
take to expand it up into Congressman Ose's--I believe he has 8 
counties and I have 10 counties up to the north. Any ballpark?
    Mr. Saunders. You know, we just started a program within 
the last few months, so I would think it would take at least 
that much money to go to the next level to the north, and I 
certainly support that. Because the drugs--we have seen a lot 
of them coming from Mexico and the distribution points are all 
over the State. It seems to me in my opinion that if we are 
effectively going to fight this problem we have, that we would 
have to do it not only statewide, but even up into Oregon and 
Washington or north of that. And I would think that it would 
take at least as much money to do the next northern counties up 
there as we have down here.
    Mr. Herger. And again, I am asking the questions. I am sure 
you are just getting going in your own program. But just off 
the top of your head, would you think maybe an expansion of the 
current HIDTA we have or an additional HIDTA for that area? Do 
you have any----
    Mr. Saunders. I think if you are looking at eight counties, 
I think a new HIDTA up there would be fine. If not, an 
expansion of the current one down here with the appropriate 
funding for that HIDTA would work. And once again, I think our 
budget from our HIDTA currently in Sacramento is about $1.2 to 
about $1.6 million.
    Mr. Herger. Very good. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Mica. I would like to thank each of our witnesses for 
appearing on the first panel today and also providing this 
insight testimony to our subcommittee. I will yield a second to 
Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I would like to move that 
the witnesses written testimony be made a part of the record.
    Mr. Mica. Without objection. So ordered.
    Mr. Ose. And then also would it be possible to leave the 
record open for 2 weeks for additional questions?
    Mr. Mica. Without objection. So ordered. And we may be 
submitting additional questions to the witnesses or if we have 
additional testimony or information that you would like 
submitted to the record upon request, that will be so ordered.
    I would like to again thank each of the witnesses, 
particularly you, Ms. Ruppel. I am sure your mother would be 
very proud of you in hoping to take what has been a family 
tragedy and turning it into something positive for your future. 
And also hopefully today, you helped affect the lives of other 
young people who are facing this challenge. So we are very 
pleased that you joined us and gave your personal testimony. 
Thank you so much and we wish you well.
    And to the other witnesses, we thank you for your 
information. If there is background you would like to submit 
for the record and we may have additional questions and we will 
do that. So at this point, I will excuse this panel and call 
the second panel.
    Staff will go ahead and give out the name tags. The second 
panel today consists of Mr. McGregor Scott, the district 
attorney at Shasta County. Another witness on that panel is 
Sheriff Clay Parker of Tehema County, CA. We also have Sheriff 
Jim Denney, sheriff out of Sutter County, CA. Another sheriff 
is Gerald Shadinger of Colusa County, CA. A personal witness, 
Mr. Bill Ruzzamenti, and he is the director of the California 
Central Valley HIDTA. Also testifying is Mr. Gilbert Bruce, 
Director of the Drug Enforcement Administration located in San 
Francisco, CA, and Mr. Paul Seave, the U.S. attorney for the 
Eastern District of California.
    As I explained to the other panelists we had in our first 
panel, this is an investigations and oversight subcommittee of 
Congress, and we do swear in our witnesses. So if I could ask 
the witnesses to please stand and raise your right hands. Do 
you solemnly swear that the testimony you are about to give 
before this subcommittee of Congress is the whole truth and 
nothing but the truth?
    Answered in the affirmative.
    I would like to welcome each of the witnesses on this 
panel. It is a rather large panel. We are asking that you do 
limit your oral presentation to the committee to 5 minutes. If 
you have additional lengthy statement or documentation you 
would like to be made part of the record upon request, it will 
be entered into the record.
    With that, I am pleased to recognize the first witness 
today, Mr. McGregor Scott, who is the district attorney of 
Shasta County. Mr. Scott, you are recognized.
    Mr. Scott Right here, Mr. Chairman.
    Mr. Mica. Yes, sir. Thank you. Welcome, and you are 
recognized.

 STATEMENT OF McGREGOR SCOTT, DISTRICT ATTORNEY, SHASTA COUNTY

    Mr. Scott. Thank you. I want to thank the members of the 
subcommittee for coming to the North Valley to hear this 
testimony today about the epidemic of methamphetamine in our 
communities. I have submitted to you a formal statement with 
specific information and statistics. In particular, my formal 
statement provides you with details about the Shasta County 
Methamphetamine Task Force, a community-based coalition, which 
I believe can serve as a model for other communities in the 
battle against methamphetamine.
    In addition, my formal statement provides you with the 
details of the high level of cooperation and teamwork which 
exists between local law enforcement agencies and State law 
enforcement agencies in the methamphetamine fight.
    The points I wish to convey to you today in this brief 
opening statement are fourfold. One, we have a tremendous 
problem with methamphetamine in the North State. Two, we as law 
enforcement are all working aggressively to combat the problem. 
Three, we come from communities which are committed to working 
together to combat this problem. And four, we need the help of 
the Federal Government in this fight.
    There are two specific actions which I believe the Federal 
Government can take to join in the fight. First, a regional 
office of the Drug Enforcement Agency should be opened as soon 
as practical in the North State. Second, the Central Valley 
HIDTA should undertake an additional initiative to expand into 
the North State. I look forward to our dialog here today, the 
result of which hopefully will be these two actions.
    Thank you.
    [The prepared statement of Mr. Scott follows:]

    [GRAPHIC] [TIFF OMITTED] T6900.032
    
    [GRAPHIC] [TIFF OMITTED] T6900.033
    
    [GRAPHIC] [TIFF OMITTED] T6900.034
    
    [GRAPHIC] [TIFF OMITTED] T6900.035
    
    [GRAPHIC] [TIFF OMITTED] T6900.036
    
    Mr. Mica. Thank you, Mr. Scott.
    I now recognize Sheriff Clay Parker of Tehema County, CA.

      STATEMENT OF SHERIFF CLAY PARKER, TEHEMA COUNTY, CA

    Mr. Parker. Thank you, Mr. Chairman. And I also want to 
thank all of you for allowing me to testify here today before 
you to discuss a problem that as you can see doesn't just face 
northern California. It is a national problem as well. I want 
to take this opportunity to provide you with information on the 
North State and what we have been doing for the past 20 years 
regarding the methamphetamine problem.
    I appear before you not only as the sheriff of Tehema 
County, but as a past narcotics officer and task force 
commander, and I have actively been involved in methamphetamine 
investigations for the last 10 years and actually 
methamphetamine cases for the last 20 years.
    I have seen the adverse effects of persons making, using 
and dealing methamphetamine, and what it does to the families 
and communities. I do need to make something very clear at this 
point, though. And that is that the problem is not limited to a 
select few counties in the North State. This is a problem of 
the whole North State.
    Before I came to you, I thought what we needed to do was 
point out what we have done on a local level, and what we have 
done is, as you have heard already, we have had DARE programs 
and there is curriculum now in the middle schools and high 
schools which we are expanding up in our counties already. We 
have done undercover operations, childcare programs, reverse 
stings, asset forfeiture, and Mr. Scott just mentioned about a 
DEA office up in the North State. Right now mainly when we do 
asset forfeiture cases on the Federal level, the DEA doesn't 
handle it. An IRS agent out of Redding does. And we personally 
would like to see a North State office of DEA be added.
    On a local issue, in 1990 we didn't have a sustained effort 
against methamphetamine and other drugs because none of the 
local agencies had the manpower or resources to put it 
together. So in 1990, we formed a local task force, which 
consisted of the Sheriff's Department, Probation, DA and all 
the police departments in the county. As we worked that task 
force, we saw that there was a major problem with the kids, and 
the kids' access to drugs throughout the community, and we also 
saw that a lot of the parents in our communities were ignoring 
the problem and in fact saying there was not a drug problem in 
our local schools.
    Well, in 1995 and the first part of 1996, we did an 
undercover buy program in the Red Bluff Union High School 
District, and we ended up arresting 52 people that were dealing 
and using the kids of our schools with methamphetamine. It was 
an extremely successful program and it kind of woke up our 
communities. The other thing through that time is that we have 
seen that it is just not a local county problem or a North 
State problem. We see with Interstate 5 and 99--again, this has 
all been brought up--that a lot of these narcotics and 
methamphetamine are coming from the major metropolitan areas 
such as San Francisco, Los Angeles, San Diego. And again, it is 
more of a regional problem. When I talk regional, I am talking 
about this Central Valley HIDTA that needs to be extended into 
the North State.
    Currently, we have in Tehema and Glenn County what is 
called TAGMET, which is the Tehema and Glenn Methamphetamine 
Enforcement Team. And what we did was we saw that we couldn't 
just do it on our own in counties. We then formed TAGMET, and 
now we have the California Department of Justice Bureau of 
Narcotics Enforcement, an agent in charge, and then we have the 
Sheriff's Department and Probation Departments, DA's from Glenn 
and Tehema on this, along with the CHP, California Highway 
Patrol from Willows and Red Bluff, and the local police 
departments from Red Bluff, Corning, Willows and Orland. And we 
have seen that that has been very beneficial. In 1999 alone, 
the TAGMET agents seized 27.5 pounds of meth, 4.5 pounds of 
cocaine, 48 pounds of marijuana, and 4,300 marijuana plants, 5 
grams of heroin, and 124 liters of meth in solution, which 
probably would have worked out somewhere between 45 and 85 
pounds of finished methamphetamine. The street value of these 
substances seized was in excess of over $10 million if it 
actually had made it to the street.
    The other thing you have to look at when I give you these 
stats, compared to larger counties it doesn't sound like much. 
But you have to remember that Tehema County is 55,000 is our 
population. Glenn County is 27,000. So this per capita, there 
is definitely a major problem.
    We are constantly in contact with special agent in charge, 
Jack Nair, the California Department of Justice Bureau of 
Narcotics Enforcement, and Jack is here. He has 10 northern 
California counties including Tehema. He has got Lasson, 
Modock, Pumas, Glenn, Trinity, and Siskiyou also. He can 
validate and talk to you about the problem we have in the North 
State and how we need to get Federal intervention to help us.
    We believe through our cooperative efforts at this time 
that we have done everything possible that we can do on a local 
level. And again, what I am requesting and what we are 
requesting in the North State is that a DEA office be opened in 
the North State, hopefully in Redding. And that at some time 
that we also be considered in probably expanding the Central 
Valley HIDTA into the North State.
    We talked about the education of the youth, and I preach 
this every time I go to a school or anything else. And that is 
that the youth of today are our leaders of tomorrow. So we need 
to do everything in our power today to help them so that they 
will become productive members in the future. Thank you.
    [The prepared statement of Sheriff Parker follows:]

    [GRAPHIC] [TIFF OMITTED] T6900.037
    
    [GRAPHIC] [TIFF OMITTED] T6900.038
    
    [GRAPHIC] [TIFF OMITTED] T6900.039
    
    Mr. Mica. Thank you for your testimony.
    We will now recognize Sheriff Jim Denney of Sutter County, 
CA. You are recognized, sir.

       STATEMENT OF SHERIFF JIM DENNEY, SUTTER COUNTY, CA

    Mr. Denney. Thank you, Mr. Chairman. Good morning. My name 
is Jim Denney. I am the sheriff, coroner, and public 
administrator of Sutter County. For your information, Sutter 
County is a small rural county, probably one of the smallest 
counties in the State, located in the heart of the Sacramento 
Valley and immediately north of Sacramento County. The county 
encompasses 608 square miles and holds nearly 77,000 residents. 
The county has an agriculturally based economy and unemployment 
runs as high as 18 percent during the non-growing season. Our 
county seat is Yuba City, which is located on the west side of 
the Feather River, directly across from the city of Marysville, 
which is the county seat of Yuba County, population 69,000. 
Combined, both cities make up the twin cities for the Sutter/
Yuba County region.
    This region shares many services, which includes a two-
county drug enforcement task force known as the Narcotic 
Enforcement Team or NET-5. The team is comprised of law 
enforcement officers from the two sheriff's departments and two 
police departments in the region and is supervised by an agent 
from the California Department of Justice, Bureau of Narcotic 
Enforcement. NET-5 is one of the oldest DE task forces in the 
State of California, and I have two deputies assigned to that 
unit.
    I am here today to present to you from my perspective the 
methamphetamine problem in the Sutter and Yuba County region of 
northern California, and what I believe is needed to address 
that issue. My expertise in this issue is that of a career law 
enforcement officer with 28 years of experience, the last 24\1/
2\ years with the Sutter County Sheriff's Department. From 1987 
through 1989, I was assigned as a detective sergeant to the 
NET-5 task force as second command of that unit.
    The methamphetamine problem has been a longstanding issue 
in Sutter and Yuba Counties since early 1980's. Back then it 
was manufactured by mostly outlaw motorcycle gangs like the 
Hell's Angels and loose knit associates with little or no 
organization. Rarely was large quantity manufacturing occurring 
on a regular basis, and most seized methamphetamine labs 
consisted of quantities measured in ounces.
    Today, organized Mexican crime groups have largely taken 
over the major manufacturing of methamphetamine, moving 
chemicals, finished product and money back and forth across our 
border with Mexico. Back in 1988, NET-5 seized a total of five 
methamphetamine labs in the Sutter and Yuba County region. Fast 
forward 11 years to when NET-5 seized 43 meth labs last year 
alone. I might also add that this year, since January 1st, in 
the first 2 months of this year we have already seized 16 labs 
in the region. At that rate, we will be up close to 100 labs by 
the end of the year.
    I admit that most of these labs were of the local variety, 
commonly known as Beavis and Butthead labs, but an alarming 
number of sophisticated laboratories are emerging. Last year, 
NET-5 conducted a multi-agency undercover operation known as 
Operation Reunited, which targeted the drug activity in the 
Sutter and Yuba region. A total of 16 local, State and Federal 
law enforcement agencies participated in the 4-month operation. 
This intensive operation resulted in 259 arrests, 15 
methamphetamine laboratories seized, and over $43,000 in U.S. 
currency and two vehicles taken for asset forfeiture. Nearly 8 
pounds of methamphetamine and three-quarters of a pound of tar 
heroin was seized during this operation including a small 
quantity of cocaine and marijuana. The combined street value of 
all drugs seized at this time totaled over $270,000.
    During this operation, a major methamphetamine laboratory 
was established in my county by an organized Mexican crime 
group from the San Jose area. This resulted in round-the-clock 
surveillance by various agencies involved in Operation Reunited 
over a 2-month period. The surveillance would not have been 
possible by local resources had Operation Reunited participants 
not been in the area. When the lab was seized, in addition to 
several pounds of chemicals and various apparatuses, it 
included eight 22-liter round bottom flasks, which are 
considered to be significant in the manufacturing of the 
methamphetamine. This lab was capable of producing 100 pounds 
of methamphetamine per cooking operation. The street value of 
100 pounds of methamphetamine after being diluted and packaged 
for sale on the street would exceed $3 million.
    The question is how do we fix this? In my humble opinion, 
what we don't need is another task force at the Federal level 
to which I would be required to assign personnel from my 
existing staff. I presently assign two deputies to the local 
drug task force in our area, one of which is funded by the 
Federal anti-drug abuse enforcement funds or the Edward Burn 
Memorial Fund. The other deputy is funded out of my existing 
budget. I do not have the luxury of having another one or two 
deputies to send to another task force like a HIDTA unless full 
funding for these positions is included. What I need is 
additional long-term full funding for increased manpower and 
resources to address this problem. I am not talking about a 
Cops Fast or a Cops More or any other limited term funding 
which pays only a portion of the annual salary and terminates 
after 3 years. This leaves the local agency with the option of 
covering the full cost of the law enforcement officer or laying 
the officer off. What I need is permanent funding that pays the 
full salary of the additional personnel and is guaranteed to 
continue for a long time to come. I also do not need to send 
local law enforcement personnel to work on a regional task 
force that involves several counties. I have enough problems to 
deal with in my own county and I need all my resources to stay 
locally to address that problem.
    What I am saying to this honorable committee is that if you 
want to address the drug crisis in northern California, then 
give us the long-term funding that we need to fund additional 
personnel to enhance our current operation and make it more 
effective. Additionally, I strongly recommend enhanced funding 
for programs supported by the national organizations like Fight 
Crime and Invest in Kids, of which I am proud to say that I am 
a State advisory panel member. This group advocates increased 
support for early childhood and after school intervention 
programs for at-risk youth to deter them from criminal activity 
later in life. Combined with strong law enforcement, problems 
like drug manufacturing and distribution can be impacted. I 
thank you for your time and consideration on this issue.
    [The prepared statement of Sheriff Denney follows:]

    [GRAPHIC] [TIFF OMITTED] T6900.040
    
    [GRAPHIC] [TIFF OMITTED] T6900.041
    
    [GRAPHIC] [TIFF OMITTED] T6900.042
    
    [GRAPHIC] [TIFF OMITTED] T6900.043
    
    [GRAPHIC] [TIFF OMITTED] T6900.044
    
    Mr. Mica. Thank you for your testimony. I now recognize 
Sheriff Gerald Shadinger with Calusa County, CA. Welcome. You 
are recognized.

    STATEMENT OF SHERIFF GERALD SHADINGER, COLUSA COUNTY, CA

    Mr. Shadinger. Thank you. Honorable Members, good morning. 
I appreciate being here. I am largely here to support my 
neighboring sheriffs in Sutter today and the Glenn County Task 
Force. I come from a little different perspective, and my 
perspective is this. I will give a little background. We are a 
very small county north of this county along I-5. I have some 
things that will be passed up to the Members later, but this is 
an example of what is in my evidence room right now. These are 
tubs of methamphetamine and cocaine that aren't my problem from 
a smaller world perspective. These were taken off of Interstate 
5 by our officers, CHP, and the task force itself made the 
seizures. But I am stuck with a bill of $200 a pound to dispose 
of this stuff and I have got hundreds and hundreds of pounds in 
these tubs.
    I think largely what should be brought to the attention of 
this committee is that the drugs that I do have or that we have 
seized are largely an Oregon and Washington problem. North of 
here, you have all the freeway systems that come together and 
that channel for the next 200 miles to the Oregon border. On 
Interstate 5, 80 percent of the arrests that we make are from 
Washington residents and Oregon residents.
    We have been innovative in the past in supporting the task 
force. We have actually gotten people to turn around and we 
follow them to Oregon and dealt with the Oregon authorities and 
nothing materialized to it on the last two occasions. But 
again, we find a lack of effort of coordination. And from a 
small county perspective, I have to say that we do need a DEA 
presence in the North State. I would like to see the Central 
Valley HIDTA extended all the way to the Oregon border for the 
purposes of being able to call the folks up when these drugs 
are headed to Oregon and Washington.
    To me, that would say it all as far as in a context of this 
is a Federal interstate problem. It isn't necessarily to us a 
regional problem in my county.
    I will say that in 1993--and the reason I bring this up is 
a preface to my next thing--but 1993, was when a couple of 
sheriffs went back and visited with Janet Reno when the Burn 
Fund was at risk back in Washington. We have these hearings 
periodically and everybody wants to know what is funded and we 
get new Congressman and so on. The Burn Fund was at great risk. 
We met with the sheriff's throughout the southwest to keep the 
Burn Fund intact. That is the only thing that runs my task 
force. I am not State funded. I don't have a State officer in 
my task force. It is strictly Burn Federal money that keeps me 
currently going.
    I think in rural counties what you have to realize is we 
don't have the resources unless the program is funded largely 
by the feds and pass-through money to the State of California 
such as OCJP. We would be non-existent in any of our efforts. 
So, therefore, I have to reiterate that we are asking for a 
coordinated effort to extend the HIDTA to the Oregon border, 
and that would be specifically six counties north. Thank you.
    Mr. Mica. Thank you for your testimony. We will now hear 
from Bill Ruzzamenti.
    Mr. Ruzzamenti is the director of the California Central 
Valley HIDTA.

  STATEMENT OF BULL RUZZAMENTI, DIRECTOR, CENTRAL CALIFORNIA 
                          VALLEY HIDTA

    Mr. Ruzzamenti. Mr. Chairman and distinguished committee 
members, I too appreciate appearing before you today to talk 
about the newest HIDTA, the Central Valley HIDTA in California. 
I would also like to take this opportunity to acknowledge the 
northern California sheriffs, which were an integral part in 
making the Central Valley HIDTA possible. They joined with the 
sheriffs from the Central Valley and were very active and 
instrumental in assisting us in bringing about the Central 
Valley HIDTA, and for that we very much appreciate it.
    The Central Valley HIDTA is a methamphetamine HIDTA, which 
means its sole narcotic focus is the methamphetamine problem in 
the Central Valley. And because of that, there are several 
unique characteristics to the HIDTA and requirements to 
membership in the HIDTA that are mandated by ONDCP and which we 
deal with in operating the Central Valley HIDTA.
    Our initial budget was only $800,000. And we have currently 
a supplemental budget of $687,000, which looks good for fiscal 
year 2000. That is not finalized, but I am very hopeful and it 
does look good that we are going to get those funds. However, 
that being said, that is still only $1,487,000 to spread 
amongst nine counties involved in the HIDTA. We have all the 
counties, as was said here before, from Sacramento south to 
Kern County and all those that border the 99 and Highway 5 
corridor down to Kern County. So the resources we have are 
incredibly limited.
    ONDCP itself has indicated that their perception of minimal 
funding for HIDTA operations is $2.5 million. We are still way 
below that, even with the supplemental that we currently have. 
I have submitted my testimony and I would be glad to answer 
questions when the time is appropriate.
    [The prepared statement of Mr. Ruzzamenti follows:]

    [GRAPHIC] [TIFF OMITTED] T6900.045
    
    [GRAPHIC] [TIFF OMITTED] T6900.046
    
    [GRAPHIC] [TIFF OMITTED] T6900.047
    
    [GRAPHIC] [TIFF OMITTED] T6900.048
    
    Mr. Mica. Thank you.
    We will now recognize Mr. Gilbert Bruce, Director of the 
Drug Enforcement Administration of San Francisco. Welcome. You 
are recognized, sir.

    STATEMENT OF GILBERT BRUCE, DIRECTOR, DRUG ENFORCEMENT 
               ADMINISTRATION, SAN FRANCISCO, CA

    Mr. Bruce. Thank you. Chairman Mica, Representative Herger 
and Representative Ose and Representative Souder, I too 
appreciate the opportunity to speak before you today and 
discuss this crisis in northern California.
    With the committee's permission, I would like to summarize 
my rather lengthy testimony that was submitted for the record.
    Mr. Mica. Without objection. All of the complete written 
statements will be made part of the record.
    Mr. Bruce. Thank you, sir. This crisis stems primarily from 
the regions sustained growth in methamphetamine production and 
trafficking and the continuing abuse of this illicit drug. But 
methamphetamine is not the only illegal drug adversely 
affecting California' northern counties. There is a robust 
production and trade in marijuana, a resurgent trafficking in 
cocaine and crack cocaine, and the persistent market for black 
tar heroin. The consequences of the abuse, production and 
trafficking of these drugs is enormous. Individuals who abuse 
any one of these drugs usually creates havoc within families 
and within our communities as we have heard this morning. The 
production techniques of drug manufacturers pose immediate 
risks for their neighbors' health and to the environment. The 
often violent tactics of traffickers endangers the safety of 
all of us.
    Methamphetamine production, trafficking and abuse pose the 
most serious drug threat to northern California. The vast 
majority of methamphetamine available in the United States is 
produced and trafficked by Mexican groups that operate large 
laboratories both in California and in Mexico. However, 
domestic production of methamphetamine by U.S. citizens is also 
a significant and growing problem. The production level of 
these laboratories, often described as mom and pop labs, is 
relatively low. However, each represents a safety and 
environmental hazard.
    Methamphetamine is a very simple drug to produce. A recipe 
can be downloaded off the Internet. A user can go to retail 
stores and easily purchase the vast majority of these 
ingredients necessary to produce it. Precursor chemicals such 
as pseudoephedrine can be extracted from common over-the-
counter cold medications. The proliferation of these mom and 
pop laboratories has imposed terrible burdens. There is an 
increased abuse and trafficking of methamphetamine. There is 
also the fact that the highly toxic and flammable chemicals 
involved in making these rudimentary laboratories ticking time 
bombs requiring specialized and expensive clean-ups.
    Each pound of methamphetamine produced in a clandestine 
laboratory generates up to 5 pounds of toxic waste. Clandestine 
laboratory operators routinely dump these wastes into 
backyards, open fields, sewage systems and streams to cover up 
the evidence of their illegal operations. The poisonous sludge 
from these sites seeps into streams, rivers and drinking water 
sources.
    Just in the eastern district of California, 486 
laboratories were seized in 1999. This total includes 9 
laboratories in Shasta County, 14 in Sacramento, 18 in Sutter, 
21 in Yuba and 32 in Butte County as reported to the Western 
States Information Network.
    Both production and trafficking and the abuse of 
methamphetamine generate an intolerable amount of violence 
within our communities. There are thousands of incidents of 
domestic and child abuse prompted by one person's 
methamphetamine habit. For instance, advocates for children 
remind us that substance abuse and in particular 
methamphetamine abuse puts young children in danger constantly. 
And for methamphetamine, as for most every other type of 
illicit drug, there is the violence propagated by traffickers 
as they conduct their illicit business. This happens at all 
levels of trafficking, but most noticeably at the street level.
    Marijuana cultivation and trafficking is flourishing in 
northern California as well. The region is ripe with indoor and 
outdoor growths producing high grade cincemia and commercial 
grade marijuana. There is also the continuing influx of 
marijuana imported from Mexico. This production and trafficking 
of marijuana has been propelled in part by passage of the 1996 
California Proposition 215. Many marijuana traffickers have 
claimed protection from prosecution under this law, despite the 
fact that under Federal law where marijuana is listed as a 
Schedule 1 drug, there is no basis for distinguishing medical 
marijuana trafficking from marijuana trafficking generally. 
Marijuana trafficking is a violation of Federal law.
    Indoor and outdoor growths of marijuana are found 
throughout northern California. DEA helps fund and is a 
participant in the Campaign Against Marijuana Planting Program 
in California. And in 1999, the CAMP Program eradicated over 
3,500 indoor and outdoor marijuana growths and destroyed nearly 
1 million marijuana plants.
    With the strong soaring popularity of cheaper 
methamphetamines, some experts just a few years ago heralded 
the demise of cocaine. These predictions were overstated. While 
methamphetamine clearly has eclipsed cocaine as the drug of 
choice, there has been a recent resurgence in the demand and 
supply of cocaine and crack cocaine. Today, cocaine is readily 
available in much of California. Cocaine is trafficked 
primarily by drug organizations based in Mexico, but there is 
some direct involvement by Colombian-based organizations also. 
Cocaine is primarily being shipped from Mexico to northern 
California via Interstate 5 and Highway 99 from the Los Angeles 
Basin.
    There is also a persistent market for Mexican black tar 
heroin in northern California. Black tar heroin is the dominant 
type of heroin trafficked in the region. Southeast Asia, 
Southwest Asia and Colombia heroin are rarely encountered in 
the area. Black tar heroin is usually trafficked by 
organizations based in Mexico. Much of the black tar heroin is 
thought to originate in the state of Michoacan, Mexico, where 
heroin processing laboratories are believed to exist. 
Sacramento and other northern California cities are destination 
and trans-shipment points for this heroin as it moves up from 
Mexico and southern California.
    There is an emerging concern over the import of opium from 
Southeast Asia also. Between January 1998 and July 1999, more 
than 1 ton of opium in or destined for northern California was 
seized. The majority of these seizures were made from parcels 
originating in Laos or Thailand and sent to California 
addresses in Redding, Madeira, west Sacramento and other 
northern California cities.
    Other drugs threaten the livelihoods and lives of people 
residing in the northern counties. Supplies of LSD are 
available in northern California. The increasing popularity of 
this drug among youth remains a significant concern. There is 
also abuse of MDMA or ecstacy and GHB, gammahydroxybuterate, 
especially at grave parties that take place in almost all of 
our cities.
    DEA's goal is to disrupt and ultimately dismantle the major 
drug trafficking organizations operating in northern 
California. We focus our energies foremost on the burgeoning 
plague posed by methamphetamine while continuing to target 
marijuana, cocaine and heroin trafficking organizations. In 
pursuing this goal, DEA continues to work closely with other 
Federal, State and local law enforcement agencies throughout 
northern California through the Organized Crime Drug 
Enforcement Task Force, the Central Valley High Intensity Drug 
Trafficking Area [HIDTA], and State and local task forces. In 
particular, we continue our close cooperation with California's 
Bureau of Narcotic Enforcement. DEA continues to pursue 
methamphetamine manufacturers and traffickers operating in the 
northern counties. Parallel to these efforts, we continue the 
aggressive targeting of major road chemical supply houses and 
pseudoephedrine suppliers operating in northern California. We 
continue to target and investigate indoor and outdoor marijuana 
growths throughout the northern counties of California. These 
efforts involve close coordination and cooperation with our 
State and local counterparts. Our continued efforts to reduce 
the threat posed by cocaine and crack cocaine in northern 
California involve identifying, targeting and dismantling the 
transportation cells moving cocaine throughout the area. We 
continue to target and investigate organizations trafficking in 
black tar heroin or producing or selling LSD, MDMA and other 
dangerous drugs.
    DEA specifically targets drug-related violence through our 
Mobile Enforcement Team Program. The MET is a special DEA 
enforcement group trained to assist local communities in 
fighting drug-related violence. DEA has advertised the MET 
program to local law enforcement officials in each of 
California's northern counties and is prepared to respond to a 
community's call for assistance. Already the MET has been 
deployed to Yuba County as part of the Operation Reunited that 
the Sheriff talked about. This 3-month deployment, which 
concluded on July 2, 1999, resulted in the arrest of 26 
individuals and seizure of 7\1/2\ pounds of methamphetamine, 25 
pounds of processed marijuana and small quantities of cocaine 
and heroin and nine weapons.
    This concludes my remarks. I would like to thank you for 
allowing me to testify today and I would certainly be open for 
any questions.
    [The prepared statement of Mr. Bruce follows:]

    [GRAPHIC] [TIFF OMITTED] T6900.049
    
    [GRAPHIC] [TIFF OMITTED] T6900.050
    
    [GRAPHIC] [TIFF OMITTED] T6900.051
    
    [GRAPHIC] [TIFF OMITTED] T6900.052
    
    [GRAPHIC] [TIFF OMITTED] T6900.053
    
    [GRAPHIC] [TIFF OMITTED] T6900.054
    
    [GRAPHIC] [TIFF OMITTED] T6900.055
    
    [GRAPHIC] [TIFF OMITTED] T6900.056
    
    [GRAPHIC] [TIFF OMITTED] T6900.057
    
    [GRAPHIC] [TIFF OMITTED] T6900.058
    
    [GRAPHIC] [TIFF OMITTED] T6900.059
    
    [GRAPHIC] [TIFF OMITTED] T6900.060
    
    [GRAPHIC] [TIFF OMITTED] T6900.061
    
    Mr. Mica. Thank you.
    And we will suspend questions until we have heard from our 
final witness, which is Mr. Paul Seave. He is the U.S. attorney 
in the Eastern District of California. Welcome. We recognize 
you.

  STATEMENT OF PAUL SEAVE, U.S. ATTORNEY, EASTERN DISTRICT OF 
                           CALIFORNIA

    Mr. Seave. We are the 10th largest by size; we are the 8th 
largest by population. And perhaps surprisingly, we have the 
17th worst crime rate among the four judicial districts. In 
California, we have the worst crime rate among the four in the 
State.
    I would like to briefly outline the methamphetamine problem 
which others have mentioned, and then highlight two of the 
various strategies that we are pursuing to respond to the meth 
problem here.
    Meth poses the primary drug threat in California and almost 
every State west of the Mississippi. Historically, as has been 
mentioned, meth use was found primarily in California produced 
by outlaw motorcycle gangs within the State. Approximately 6 
years ago, however, poly drug organizations in Mexico moved 
into this market. They possessed the resources to finance and 
staff methamphetamine laboratories that could produce 
quantities far in excess of the multi-gram and pound 
laboratories of the past. These super labs can manufacture 10 
pounds, 50 pounds and even 100 pounds of methamphetamine per 
production session. It is estimated that well over half, 
perhaps as much as 75 percent of the methamphetamine used 
nationally is manufactured in California. These super labs are 
located primarily in the southern half of this district and the 
Los Angeles area.
    Not surprisingly, California is now referred to by law 
enforcement across the Nation as the source country for 
methamphetamine. California's methamphetamine is primarily 
manufactured with chemicals purchased domestically from 
American businesses. The main precursor chemical is 
pseudoephedrine. This chemical, which is also a main ingredient 
in over-the-counter allergy and cold tablets is imported from 
Europe, India and China by large East Coast companies, 
manufactured into pills and then sold to wholesalers across the 
United States. These wholesalers in turn sell to retailers such 
as small convenience and liquor stores, and these retailers 
sell cases of these pills to the operators of the 
methamphetamine laboratories. The wholesalers also mail cases 
of these pills directly to meth traffickers.
    Alarmingly, the quantity of pseudoephedrine imported into 
the United States has nearly tripled between 1990 and 1996. 
Meaning that unless the citizens of this country are tripling 
the incidence of colds and allergies, we have a pretty good 
idea that all the pseudoephedrine is going to meth labs and to 
meth users in the United States.
    I would like to highlight two aspects of our anti-meth 
strategy. The first has been to focus on the businesses that 
distribute pseudoephedrine and other chemicals to the 
manufacturers of meth. Criminal prosecution of these businesses 
requires proof of intent. For example, that the defendant knew 
or had reasonable cause to believe that the chemicals would be 
used to manufacture methamphetamine. Prosecuting these 
businesses civilly requires a lesser quantum of proof, such as 
that the defendant distributed the chemicals with reckless 
disregard for the illegal uses to which they would be put, or 
that the defendant failed to report a suspicious transaction, 
or that the defendant failed to document the purchaser's 
identity. It is important to remember that such enforcement 
actions, criminal or civil, can be difficult because those who 
sell these legal chemicals for illegal purposes go to great 
lengths to enhance their appearance as legitimate business 
people. Notwithstanding these difficulties, experience has 
convinced us that prosecuting a chemical trafficker reduces 
methamphetamine production and distribution to a far greater 
degree than the traditional prosecution of those operating 
clandestine labs. Indeed, the price of pills containing 
pseudoephedrine has skyrocketed since we implemented this 
strategy and the purity level of meth has plummeted.
    And I might just mention that right now in Federal court in 
this district, there are two trials going on. These are the two 
most significant cases that we have charged to date in this 
area.
    A second aspect of our strategy has been to enhance our 
capacity to collect drug-related intelligence from the more 
than 100 police agencies in this district, to analyze that 
information, and to make that information and analysis 
available to all agencies. For example, it is critical that law 
enforcement comprehensively collect discarded pill bottles from 
meth labs and dump sites, determine the distributors of those 
bottles, and notify the distributors so that they can take 
preventive measures or face future enforcement action. This is 
a resource intensive and complex project requiring the 
participation and coordination of numerous agencies. We are 
well on our way to implementing that strategy.
    In conclusion, methamphetamine, unlike most other illegal 
drugs, is produced primarily within our borders and primarily 
within our State. This means that the so-called legitimate 
businesses that supply the chemicals needed by meth 
manufacturers are within the reach of U.S. law enforcement. We 
are now focusing on these businesses and thus far we have met 
with some success. Again, thank you for allowing me to address 
you, and I look forward to any questions you may have.
    Mr. Mica. Thank you. And we will start with some questions.
    First, Mr. Scott, did you have to leave early?
    Mr. Scott. I'll have to depart here soon.
    Mr. Mica. OK. Well hopefully we will be through by that 
time. I just wanted to make certain that we didn't detain you. 
I have some questions. First of all, on the expansion of the 
HIDTA, you have a current request in for what? $2.5 million for 
the existing HIDTA?
    Mr. Ruzzamenti. The existing HIDTA, currently the budget 
will be $1.487 million for 2000. We have not put in our 2001 
request yet. I have been advised by ONDCP though that next 
year's funding will be level funding and not to anticipate any 
more than we got this year unless there is another enhancement, 
in which case we could get more than the $1.4.
    Mr. Mica. And you are saying it takes somewhere in the 
range of $2.5 million to operate just the HIDTA that you have 
now adequately?
    Mr. Ruzzamenti. That is ONDCP's estimate.
    Mr. Mica. Right. I mean for your side of it. Are you 
requesting $1.4 and getting $1.4, or are you requesting more?
    Mr. Ruzzamenti. Well, I would anticipate that what--
logistically the way we would do this is we will put in the 
request because we have been mandated by ONDCP to request level 
funding of $1.4. And then I will do a supplemental requesting 
that additional $1 million.
    Mr. Mica. Describe for me how you are spending the money 
that you are getting. Is there administrative costs and is it 
distributed to the different agencies? How is it broken down?
    Mr. Ruzzamenti. Currently, we have three enforcement 
initiatives. One in Bakersfield, one in Fresno and one in 
Modesto. And they are all enforcement methamphetamine task 
forces that are involved in complex methamphetamine----
    Mr. Mica. Are they getting money?
    Mr. Ruzzamenti. They are getting money.
    Mr. Mica. How much of the $1.4?
    Mr. Ruzzamenti. They get right now roughly $200,000 and 
some each. It varies from----
    Mr. Mica. OK. That times three is $600,000 or $700,000.
    Mr. Ruzzamenti. It is about $750,000.
    Mr. Mica. OK. Where is the balance going?
    Mr. Ruzzamenti. Then we have the intelligence task force in 
Sacramento.
    Mr. Mica. How much?
    Mr. Ruzzamenti. It is getting about the same, about 
$250,000.
    Mr. Mica. OK. We are up to $1 million. The balance?
    Mr. Ruzzamenti. And then the balance, we are setting up an 
intelligence center in Fresno which will coordinate the 
intelligence amongst the HIDTA activities going on in the other 
initiatives. That is being set up and that again is about 
another $250,000 for this year's funding. And then the rest is 
administrative and operational funding.
    Mr. Mica. Are there any amounts of money going to the 
individual sheriff's departments for employing additional 
personnel?
    Mr. Ruzzamenti. No, not at this time. We have funding going 
to the sheriff's departments to pay for overtime.
    Mr. Mica. Well, you've heard that Sheriff Denney says that 
he just doesn't want to send more folks to another task force 
and meetings and deplete what he has now. If we expand this, we 
are going to need additional money and we don't want to divide 
this up to a lesser amount. Sheriff Shadinger has spoken about 
his only help is the Burn Grant.
    Mr. Shadinger. The Burn Grant is how we operate. There is 
no general fund money in small counties. That is the problem.
    Mr. Mica. OK.
    Mr. Shadinger. And if I could just make a comment?
    Mr. Mica. Go ahead.
    Mr. Shadinger. In talking with a couple of Central Valley 
sheriffs that are already participating in the Central Valley 
HIDTA, they are at a point where they know it is going to cost 
them money now out of their budget.
    Mr. Mica. To participate in that.
    Mr. Shadinger. The $1.4 is not adequate. If I didn't make 
it clear before, I don't want to encroach upon that $1.4. We 
need additional money for it to be expanded.
    Mr. Mica. Mr. Bruce, you described and I have heard 
described today that a lot of the trafficking in meth and other 
substances is coming out of Mexico. What are we doing to stop 
this stuff before it reaches our borders?
    Mr. Bruce. Again, a lot of that addresses our situation now 
in terms of resources. Because over the last few years, between 
the governments Southwest Border Initiative and the Caribbean 
Initiative, a great many of our resources at DEA have been 
dedicated to those initiatives. And I think we are----
    Mr. Mica. Have you remained level in funding and personnel 
or increased? Give me a snapshot over the last 4 or 5 years?
    Mr. Bruce. Well, DEA has gotten substantial----
    Mr. Mica. Your resources here.
    Mr. Bruce. Here in the division?
    Mr. Mica. Yes.
    Mr. Bruce. Virtually been flat. Some increases, very small 
increases.
    Mr. Mica. So we are going tomorrow to San Diego and do a 
border hearing followup to this hearing. So I will be anxious 
to see where the resources are. Finally, Mr. Seave, what 
priority do you place as far as your district here on the drug 
enforcement prosecution? And what are we doing at the Federal 
level to curtail the problem that we could be doing better? I 
believe we have the role, first of all, of stopping the stuff 
before it ever gets to the border and then tough prosecution. 
Is prosecution a high priority and what aren't we doing?
    Mr. Seave. Yes. Prosecution of meth in particular is 
probably the top priority of our office. I know we prosecute 
more meth cases than any other U.S. attorneys offices and we 
get the highest sentences.
    Mr. Mica. What could we do to do a better job at the 
Federal level to help bring the situation under control?
    Mr. Seave. As far as resources go, I would harken back to 
what everyone on the panel has said. We need more DEA agents in 
this district, and particularly in northern California. This 
district relative to the rest of the country is significantly 
underserved if you measure the agents by agents per population 
or agents per number of cases brought and so forth. So as far 
as resources go, at the Federal level that is what I would like 
to see.
    From a tactical level, what we are starting to do again is 
to go after the people who sell these chemicals.
    Mr. Mica. Are the laws adequate in that regard? Federal 
law, particularly with some of the precursors or chemicals used 
in production of methamphetamine?
    Mr. Seave. I believe that the laws are adequate. What we 
need more resources or more effort focused on, is tracking the 
chemicals when they hit the border or when they hit the East 
Coast and where they go from there--how you track them and 
where are they going--so we can more effectively focus our 
enforcement efforts. Stopping chemicals and drugs coming across 
the border is very, very difficult. But the beauty so-called of 
meth is that it is being produced here. And that is why going 
after the chemical people strikes me as the most effective 
strategy. I mean, they are here. And if we can track them more 
effectively than we do now, and we are trying to do as good a 
job as we can, we can drive up the price even more than we have 
now.
    Mr. Mica. Thank you. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. If I may diverge for a 
moment. I want to make sure I recognize one gentleman who has 
already left, but also one who has joined us. Sheriff Blanas 
from Sacramento County joined us for a few minutes and 
unfortunately he had to go on. Also the District Attorney of 
Yolo County is here, Mr. Dave Henderson. Dave, thanks for 
joining us.
    I wanted to highlight for the record that when the issue of 
the Central Valley HIDTA came up, up and down my particular 
district and I am sure in Wally's, there was an immediate 
response from my sheriffs as to we would like to be included. 
And the question became one of funding. And the thing I wanted 
to highlight was that without exception from north to south, 
every one of my sheriffs said if all we have got is enough 
money to set up one in the nine counties, what became the 
Central Valley HIDTA, we need to do that. We need to not let 
perfect be the enemy of the good. And without exception from 
north to south, even those who aren't here, spoke out with 
let's get the Central Valley HIDTA set up. So I want to 
particularly pay my respects to the gentlemen here because they 
were very vocal about that as well as their colleagues.
    But I am interested specifically as to what the House of 
Representatives in its fiscal capacity can do to assist with 
creating or expanding the current Central Valley HIDTA to 
address the issue. And my rationale is as follows. As the 
Central Valley HIDTA comes into existence and becomes more and 
more effective, those who would otherwise traffick in 
methamphetamines or other things are going to go to an area 
where there is less attention being paid, which naturally would 
lead them further north on I-5 or 99 into my area. When they 
get here, I want to be ready. I want to deal with it now, but I 
don't want to open the door if you will.
    So my question again gets back to the fiscal reality we 
face. And that is how do we in Congress provide--Mr. Bruce, how 
do we provide you the resources to address this? And my 
specific question is, I think, as I understand it the current 
HIDTA, according to the gentleman McCaffrey, requires $2.5 
million to operate and be staffed effectively. Is that 
accurate?
    Mr. Ruzzamenti. Yes.
    Mr. Ose. If we were to expand that current HIDTA, what 
would you need in terms of fiscal support from the Federal 
Government over and above the $2.5?
    Mr. Ruzzamenti. If we in fact got $2.5 for fiscal year 
2001, we could do some limited expansion with that. In other 
words, we could probably incorporate another initiative if we 
got a full $2.5.
    Mr. Ose. In addition to the three you have at this time?
    Mr. Ruzzamenti. In addition. Realistically, it won't be 
anything extravagant. But we could probably support another 
initiative if we got the full $2.5 million funding. If you are 
talking about all the northern counties, then that would be 
significantly more appropriations. I would think just roughly 
you are probably looking at least $5 million.
    Mr. Ose. From the Federal Government?
    Mr. Ruzzamenti. Yes.
    Mr. Ose. OK. Mr. Bruce, do you agree with that?
    Mr. Bruce. Yes, I do. One thing--and you get into the 
conversations of adding on initiatives to the already formed 
HIDTA as opposed to--I know that came up earlier as opposed to 
a totally separate HIDTA. With that, of course, you have all 
the same commensurate administrative set-up and expenses and 
things, which take a substantial amount of funding also. But my 
understanding is--and I came into the process rather late when 
the Central Valley HIDTA was being formed--that from the 
initial aspects of it as you mentioned was that they would be 
all-inclusive throughout the eastern district at the point it 
could be. But funding and resources are always the bottom line. 
Whether it is deputies in Sutter County or whether it is DEA 
agents or whether it is funding to put initiatives together. It 
all gets down to resources, and it is tough. I mean, the 
competition right now is very, very tough. Whether it is for 
Burn Grants or whether it is the competition I am in with 20 
other domestic divisions and the foreign offices for agent 
resources in my organization. It is a tough thing.
    Mr. Ose. If I may, Mr. Chairman. If I understand your point 
earlier, the $1.487 million that you have got now, you've got 
some going to setting up an intelligence center and some to 
actual intelligence in the field, three initiatives and then 
administrative costs. If we expanded the HIDTA, we would not 
need a new intelligence center. So that is not going to be a 
mirror image. So we wouldn't have that. We would arguably need 
the intelligence resources in the field, so we might still have 
that quarter remaining. The administrative costs might go up 
some, but not on a dollar-for-dollar mirror. Is there 
administrative capacity to run an expanded HIDTA in the Central 
Valley?
    Mr. Ruzzamenti. I wish I could tell you yes. Right now, we 
are just setting up. So basically the entire administration of 
the HIDTA is sitting here.
    Mr. Ose. You are doing fine.
    Mr. Ruzzamenti. I just hired an administrative assistant 
who starts to work today. So we have got that working. And we 
just hired a fiscal person who just started work about a week 
ago. So we are building that sort of structure. With the 
increase in counties and the increase in the funding for the 
projects that we have going on, that is somewhat labor 
intensive as far as making sure the money is spent 
appropriately and audited appropriately and those kinds of 
functions. So there would be additional administrative costs, 
but I don't think they would be excessive. Right now, each 
initiative compartmentalized, we are looking at about $250,000, 
and all that covers--this doesn't cover it all--overtime for 
the police officers and the sheriffs department and some moneys 
for purchasing evidence and paying informants, but very 
minimal, and that is about it. That really is the bulk of where 
the money is going. So it is somewhat of a shoestring 
operation.
    Mr. Ose. I appreciate your comments and I know my good 
friend has questions as to who makes the decision as to whether 
or not to expand the HIDTA, assuming Congress provides the 
resources. But I do not want to get away from your point, 
Sheriff Denney, about providing the fiscal support rather than 
local resources. We will come back to this, Mr. Chairman, if 
you will allow a second round of questions. With that, I will 
give it back.
    Mr. Mica. Thank you. I yield now to the gentleman from 
Indiana, Mr. Souder.
    Mr. Souder. First I wanted to say to Sheriff Denney, you 
have the most interesting job title I have heard of--sheriff, 
coroner and public administrator. I assume if you come to 
someone's door, they certainly hope you are coming as a public 
administrator.
    Sheriff Parker, I had a question. In your data, you start 
off with the methamphetamine seizures, but in fact you seize 
almost twice that in marijuana as well as other drugs. Is the 
percentage of meth increasing? Is that why you stressed that 
more? Why is there so much discussion? Because in the other 
statistics we heard as well, marijuana is still a greater 
problem than methamphetamine.
    Mr. Parker. I talked about meth because TAGMET mainly deals 
with the meth problem. I didn't even mention the amount of 
marijuana that both Glenn County and Tehema County Sheriffs 
Department seized.
    Mr. Souder. Well, you have in your written statement, at 
least, that TAGMET agents seized 27.65 pounds of 
methamphetamine and 47.65 pounds of marijuana. Even the TAGMET 
interdicted twice as much marijuana.
    Mr. Parker. Yes, marijuana is a big problem in the North 
State. And like I said, we have our own marijuana eradication 
team.
    Mr. Souder. In addition to the TAGMET?
    Mr. Parker. Oh, yes. And so does Glenn County.
    Mr. Souder. And is the marijuana staying the same level 
problem vis-a-vis methamphetamines or do you see the ratio 
shifting?
    Mr. Parker. Actually, I see marijuana has increased in the 
last few years, and unfortunately part of that problem is 
probably the teen, which has to be addressed sometime. But 
still we have a major problem with methamphetamine, and it is 
not just being shipped in by I-5. We have a lot of labs in our 
own county that is producing it. It is a major problem.
    Mr. Souder. Then on behalf of Indiana, I want to say that 
your problem in California has unfortunately spread to the rest 
of the country by implying it is a health issue, when we could 
probably find a health subcomponent of tobacco and we could 
probably find a health subcomponent of alcohol and we could 
find a health subcomponent of a number of things. By putting 
the term medicinal in front of marijuana, we have really 
weakened our ability to communicate messages in the schools and 
elsewhere.
    Mr. Scott, in your testimony, you said that from the Shasta 
Interagency Narcotics Task Force that meth arrests accounted 
for 76 percent of arrests and that 72 percent of the kids on 
probation tested positive for meth. Would marijuana have 
similar figures? In your county is it a different mix?
    Mr. Scott. Well, with respect to the arrests, our sheriffs 
department has the marijuana eradication team which handles the 
bulk of the large growths and things of that nature. I don't 
want to say exclusively on methamphetamine, but in terms of 
cocaine, heroin and methamphetamine, there is no comparison. 
There is simply no comparison between the amount of 
methamphetamine that it handles in relation to the other ``hard 
drugs''.
    Mr. Souder. Mr. Ruzzamenti, if the No. 1 problem is 
marijuana, why is your HIDTA only focused on methamphetamine?
    Mr. Ruzzamenti. Well, the Central Valley HIDTA is focused 
on methamphetamine because that is by far and away the No. 1 
problem in the nine counties that are overseen by the Central 
Valley HIDTA.
    Mr. Souder. You are saying that more people use 
methamphetamines than marijuana or more arrests in those nine 
counties?
    Mr. Ruzzamenti. It is a much more insidious drug as far as 
the violence incurred and as far as the organization structure 
of the organizations that are marketing it and transporting it 
through the areas. It has a more significant impact on the 
sheriffs departments, both manpower and time as far as lab 
clean-up sites and environmental hazards. It is the most 
significant drug in those counties from a law enforcement 
standpoint.
    Mr. Souder. Could you explain that a little more? In other 
words, the potency of the meth as opposed to the potency of the 
marijuana, cocaine and heroin?
    Mr. Ruzzamenti. Well, it is just a totally separate drug. 
Methamphetamine is not only being used, but the resulting 
problem like the lady was talking about endangered children. 
That is a problem for the family. It is just impacting the 
areas in a number of different fashions. And that is not saying 
that these areas don't have problems with marijuana and they 
don't have problems with heroin, because they do. But the most 
significant problem is methamphetamine, and that is what the 
HIDTA is targeted to go after. We have limited resources and we 
had to--decisions had to be made and that was the decision to 
take it in that direction.
    Mr. Souder. Did you say this is the only HIDTA that is 
targeted?
    Mr. Ruzzamenti. No. The new HIDTAs that came about in 
fiscal year 1999, of those I think two of them were 
methamphetamine specific. And then the other ones were general 
in nature.
    Mr. Souder. If you expanded this HIDTA, would you--do you 
know which counties you would propose including?
    Mr. Ruzzamenti. No. We would have to sit down with each of 
the sheriffs and the law enforcement administrators in the 
counties. Sit down with them and see what their problems were 
and how we could best----
    Mr. Souder. I believe you made an allusion before to the 
fact that the way you chose the counties you have in it were 
based on the percentage of methamphetamine usage. In other 
words, wouldn't that criteria have to be there if you expanded 
your HIDTA?
    Mr. Ruzzamenti. Not specific usage but the laboratories.
    Mr. Souder. The labs.
    Mr. Ruzzamenti. The major labs are in those nine counties, 
as far as the labs that are the super labs, if you will, that 
are producing the 100 pounds of methamphetamine at a time or 50 
pounds of methamphetamine at a time. These kinds of super labs 
are primarily in and around Fresno and in that area.
    Mr. Souder. And that is the kind of criteria you would 
apply as you added counties?
    Mr. Ruzzamenti. If it was to continue to be methamphetamine 
specific, I think you would have to be consistent with that 
kind of criteria. You would have to look at the counties 
consistently and what is their methamphetamine problem.
    Mr. Souder. And if it wasn't methamphetamine specific, you 
would have to go up to the $2.5 million base. Part of the 
reason you have the $1.487 is because you are specific and not 
a broad based HIDTA?
    Mr. Ruzzamenti. That is correct.
    Mr. Souder. And so then you would have to start with a 
different base before you added the other counties.
    Mr. Ruzzamenti. Yes. Technically, I don't know how ONDCP 
would do that.
    Mr. Souder. But you haven't had any discussions at this 
point with ONDCP about how to do that?
    Mr. Ruzzamenti. I have had preliminary discussions with 
ONDCP as far as trying to up the ante on this thing to $2.5 
million. And in those preliminary discussions, we have 
indicated that there were counties to the northern part of the 
State that are interested in joining the HIDTA. And that if 
additional funds were available that new initiatives in the 
northern counties would be a possibility.
    Mr. Souder. Thank you. I know my time is up. Mr. Bruce, I 
wanted to thank you for the specifics in your testimony. It was 
very helpful and hopefully we can followup.
    Mr. Mica. Thank you, gentlemen. I will recognize Mr. 
Herger.
    Mr. Herger. Thank you, Mr. Chairman. Just as a followup to 
this. Mr. Ruzzamenti, if it might be possible in the next 
couple of weeks, I believe the chairman indicated that we would 
have the record open for questions. And it would help us very 
much on the committee and as Members of Congress as far as 
budgeting is concerned if it might be possible to perhaps give 
us an outline or a skeletal budget of what you feel it might 
take to include Congressman Ose's and my districts or the 
northern part of the State. It would be very helpful to us in 
making recommendations.
    Again, I want to thank everyone who is here. The fact that 
we have so many sheriffs and so many law enforcement people and 
district attorneys not only on the panel but a number who in 
fact have shown up and are here in the audience this morning 
from throughout our area certainly indicates how incredibly 
important this issue is to us.
    We are having some questions on perhaps the difference 
between methamphetamine and what it does than that of 
marijuana, which is also a major concern. District Attorney 
Scott, if I could ask you, if I would, if you would relate. I 
know you have set up a pilot program or a program that you have 
initiated on methamphetamine. What have been some of your 
experiences on the clients, if you will--those that you have 
run into as far as their disposition, those who are on 
methamphetamines.
    Mr. Scott. I think the principle thing which distinguishes 
methamphetamine from certainly marijuana and the other drugs is 
the level of violence which accompanies use of the drug. One of 
the statistics I included in my written presentation was that 
for a 4-year period of time in Shasta County, 40 percent of our 
murders involved some use of methamphetamine. I think that is a 
startling statistic when you stop and think about it.
    The second aspect of it was spoken to by Ms. Webber-Brown 
this morning with respect to the drug becomes all encompassing. 
It literally takes over the life of the person who becomes 
addicted to it. So that literally their children don't matter 
to them as much as the drug does. And those two things really 
stand out to me in my experiences with methamphetamine. It is a 
startling thing to stand in court at an arraignment of a person 
who has been arrested for a methamphetamine related offense and 
to literally see the shell of a human being. A person who is 
emaciated, sores on their body, scratching and itching 
constantly, no concept of where they are or what is going on. 
It really is the devil's drug. That is what people call it. The 
users call it that and it is a very appropriate title.
    Mr. Herger. So it is horrendous, as all these illegal drugs 
are. Methamphetamine particularly we are seeing causing 
problems. That is quite startling I think of all the murders in 
Shasta County that almost half are methamphetamine related. So 
it certainly, I think, would indicate a reason why we, if 
anything, could use a specific program that has grown so much 
here in our area. How much would an expanded HIDTA program help 
us in northern California in your County of Shasta and the 
adjoining counties that you are familiar with if we were to be 
able to do that?
    Mr. Scott. I think it would be a tremendous help. I think I 
speak for most of the counties, if not all, when I say that we 
are literally tapped out in terms of the use of local and State 
resources to battle the methamphetamine problem. We have all 
applied for grants from the State and we have all gotten grants 
from the State and we have gotten the grants that we can from 
the Federal Government. And this is really the next step in our 
ability to do something about the problem. We have got to have 
a coordinated response between all levels of government, not 
just the locals and the State governments, but the feds, the 
State and the local government.
    One of the key things, and there are several, is the I-5 
corridor. It has been addressed here before, but one of the 
essential problems we have is that we literally are stopping on 
a daily basis drug traffickers who are ferrying drugs to the 
northwest from the Bay area and lower Central Valley and Los 
Angeles. We bear the cost of the investigation, prosecution and 
incarceration for those persons who are sent to State prison, 
when it is truly an interstate problem that we technically 
under the Constitution don't have responsibility for. And so 
the expansion of the HIDTA, along with the opening of a branch 
regional office of the DEA, preferably in the north state, 
Redding, would really go a long ways toward tying division of 
the responsibility for that interstate drug trafficking to the 
feds as well as the State and locals, and really be the next 
step, as I said, in what we are trying to do. We all come from 
communities that are seriously devoted to doing something about 
this problem, and we need the help from the feds. Because we 
have taken it as far as we can and the next level has to come 
from your end.
    Mr. Herger. Thank you very much for pointing that out. I 
know that had been pointed out earlier. But the fact that so 
much of the problem we have is really that Interstate 5 is a 
major corridor between Mexico, actually international, through 
Oregon and Washington into Canada, as well as 99, which passes 
up through Marysville and Yuba City, and these corridors do 
tend to attract those who would be involved in this.
    And I just have to restate again the importance. I want to 
thank you. I mentioned earlier just speaking with Sheriff 
Charlie Byrd, who is sitting in the back. And every sheriff I 
talk to or law enforcement within our counties, this is such a 
major problem and really just crying out for assistance and 
help to combat this. So, again, thank you very much for your 
testimony. And Mr. Chairman and members, thank you very much.
    Mr. Mica. Thank you, Mr. Herger. Additional questions, Mr. 
Ose?
    Mr. Ose. Thank you, Mr. Chairman. I want to come back to 
the two questions I have. First, and this falls to you 
primarily. I notice in Mr. Ruzzamenti's testimony that you are 
the chair of the Executive Committee for the Central Valley 
HIDTA. What I am trying to determine is to which executive or 
where in the executive branch will the decision be made as to 
whether or not to expand the existing Central Valley HIDTA?
    Mr. Seave. Within ONDCP.
    Mr. Ose. It would be made by General McCaffrey or some 
other----
    Mr. Seave. Someone working for General McCaffrey. That is 
assuming the funding is there.
    Mr. Ose. Correct, on that assumption. Is the Executive 
Committee of which you are the chair of play a role in that?
    Mr. Seave. We play a role in so far as we submit our 
requests for here are some initiatives that we have and we need 
additional funding. But I can assure you that every HIDTA is 
doing the same thing. So the decision, as far as I can tell, 
comes from McCaffrey and his staff.
    Mr. Ose. OK. From your experience, could you share with us 
some of the specific qualifications or requirements that our 
counties must establish in order to make an acceptable case for 
expanding the current Central Valley HIDTA?
    Mr. Seave. One of the factors that McCaffrey and his staff 
look at is is this just a local problem or is this a problem 
that goes beyond the regional area and beyond the State? Is 
there a national impact? As far as that goes, of course you 
have heard about I-5. So this is more than simply a local 
problem. As a number of people have mentioned, we anticipate 
that as we have success in driving the labs out of the southern 
part of this district, they are going to move to the northern 
part of the district. Just as they are moving now from the Los 
Angeles area up to this area. I guess they have been in 
business a lot longer than we have and they are having some 
success. So I think that is one of the major factors that they 
look at.
    Mr. Ose. Two final questions. I asked Mr. Ruzzamenti and 
Mr. Bruce, I will get to you. The $2.5 million for the current 
Central Valley HIDTA, are you comfortable with that for 
operations on an annual basis?
    Mr. Seave. Yes.
    Mr. Ose. What number for an expanded HIDTA that might 
include Congressman Herger's and my districts should we keep in 
mind?
    Mr. Seave. I think Mr. Ruzzamenti mentioned $5 million. But 
equally important is the lack of DEA agents in the northern 
part of the State. I think they go hand-in-hand.
    Mr. Ose. Would that be part of the $5 million or would that 
be on top of the $5 million?
    Mr. Seave. That is apart from the $5 million.
    Mr. Ose. And that would be how much for the DEA 
establishment?
    Mr. Seave. I would have to ask DEA for that.
    Mr. Ose. Mr. Bruce.
    Mr. Bruce. I am not sure exactly what the formula is now 
per agent cost. But that of course would be a whole separate 
appropriation through DEA and DEA's funding for the agents. My 
understanding on that process, the last 2 years anyway, is that 
our agent increases--I have heard the number 44 this year for 
2000. Those were all congressionally mandated. So even as an 
agency, I don't think we had any choices there in where those 
agents went. They were congressionally mandated for certain 
programs. So there is a number of ways Congress deals with 
these things. Either straight appropriation to increase the 
number of agents for the agency to handle it, or 
congressionally mandating where those agents are placed by 
virtue of giving the increases.
    Mr. Ose. Generally speaking, is that $125,000 an agent or 
$60,000 an agent or $200,000 an agent?
    Mr. Bruce. I would think $125,000 probably. Because you are 
talking about not only obviously salary, but you are talking 
about opening an office. Although we have had, even when I was 
in Sacramento for 4 years in the late 1980's or early 1990's, 
at that point we had invitations for agents in Redding. And I 
know a couple of agencies would be more than happy to let us 
squat in their facilities even if we had to. I would say, in 
talking about cars and guns and everything that goes to equip 
an agent, $125,000 per agent is probably a pretty good figure.
    Mr. Ose. And that would just be the Federal share, and that 
would not affect perhaps the associated costs for the local 
agency interacting with DEA? That would just be the Federal per 
agent number?
    Mr. Bruce. Ordinarily the way this goes--what we just did 
in Modesto this last year--ordinarily what DEA does initially 
is open what they call a posted duty, which are two agents. Two 
agents in a posted duty. And that is the initial step. Many of 
those posted duties, like in Medford, OR, for instance, which 
is just across the line in Oregon, went from a posted duty and 
subsequently became a resident office, which of course gets a 
larger facility and more manpower. But the first step would be 
a posted duty probably with two agents assigned to--the most 
reasonable location, at this point would be Redding.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Mica. Do you have some questions, Mr. Souder?
    Mr. Souder. I had a couple of quick questions on 
methamphetamine itself, probably for Mr. Bruce or Mr. 
Ruzzamenti but anybody else. Is this a drug that is more 
heavily used by adults than kids at this point in your region? 
Or are the adults who are doing the labs selling it to the 
kids?
    Mr. Bruce. I think from our experience, the age of 
methamphetamine abuse just gets younger and younger constantly. 
We are seeing it down into the primary grades now.
    Mr. Souder. Is it a drug that somebody would start with 
marijuana and switch over or is it a separate track? Usually 
you hear tobacco, marijuana, cocaine, heroin. How does 
methamphetamine fit into this track?
    Mr. Bruce. I think it is a matter of opportunity for a lot 
of kids, especially given peer pressure and the situation. I 
think just the availability creates--I think we saw that in the 
Midwest over the last few years. The fact of availability and 
an illicit substance becoming available. People are going to 
take advantage of it and traffic in it.
    Mr. Souder. But users move back and forth between it.
    Mr. Bruce. Oh, certainly.
    Mr. Souder. In other words, it is not like it is a separate 
track. Once you move into looking for artificial stimulants, 
you could move in any different direction?
    Mr. Bruce. That is certainly the way I see it over 34-some 
years in this business. We sometimes facetiously talk about the 
drug du jour. But the situation is so dynamic and that is why I 
kind of presented a little bit on several of the drugs. There 
is no question that methamphetamine is a major problem at this 
point. This too shall change.
    Mr. Souder. It is storming the Center Plains area, Kansas 
City and St. Louis. We are still over in cocaine and heroin 
when you move into the Detroit, Chicago and Indiana circle. I 
mean, we have more murders related to cocaine than what I have 
heard here from methamphetamine. I am from a city that is not 
so much larger than anything here.
    One last thing. I noticed in your data that the California 
marijuana, the THC, you estimate twice the potency of imported 
Mexican because it is being watered down or what?
    Mr. Bruce. No. Just the way it is produced and grown.
    Mr. Souder. So it is not like the ditch weed we would see 
in Indiana?
    Mr. Bruce. Right. Highly cultivated marijuana uses a 
cincemia plant, which is virtually a sterile plant. So 
everything goes to the concentration of production of THC. The 
potencies now are probably four or five times what they were in 
the 1960's or 1970's when both of us came on the job.
    Mr. Souder. So we are not talking like the hippie days of 
the late 1960's when I was in college.
    Mr. Bruce. No, not at all. I am not going to say you were.
    Mr. Souder. Not me. I have always been a square.
    Mr. Bruce. The price was not $5,000 or $6,000 a pound 
either.
    Mr. Souder. I not only didn't inhale, I didn't smoke. I 
yield back.
    Mr. Mica. Thank you, Mr. Herger. I would like to take this 
opportunity to thank each of the panelists and witnesses we 
have had today that are on the front line of this battle. We 
particularly appreciate and salute your efforts. We honestly 
try to do the best we can in Washington in trying to address 
these problems and see how we can work in a cooperative effort. 
As Mr. Scott said--he is gone now, but it does take a concerted 
local, State and Federal cooperative effort. Much of the war on 
drugs as we know it was closed down between 1993 and 1995. I 
inherited the responsibility from the current Speaker, Mr. 
Hastert, who is a great ally and was really an initiator in 
getting us back to meet our Federal national responsibility to 
bring this situation under control. I have worked so closely 
with Mr. Souder, who has been on the subcommittee with me for 
some years and now joined by Mr. Ose, who has been a tireless 
supporter of our efforts, which we appreciate. Because it takes 
218 votes to do this in the House of Representatives, I am 
pleased with Mr. Herger's interest in expanding the HIDTA and 
his support for our efforts along the way. It is very difficult 
in trying to get attention focused appropriately and balanced.
    I might say that I did have a chance on Friday to visit the 
West Coast JATF, Joint Agency Task Force, which operates out of 
the San Francisco Bay area. And they did point out that the 
West Coast has been neglected in this effort, and we need to 
focus through this visit and through the hearing we are doing 
here today and then in southern California tomorrow on the 
situation here, which appears to be very serious. You have a 
unique problem that certainly warrants national attention and 
cooperation.
    So there being no further business, Mr. Ose has requested 
that the record be left open for a period of 2 weeks. And 
without objection, that is so ordered. We will be asking 
additional questions and we can proceed for those--and I know 
this is a limited forum given the constrained time 
requirements. In fact, our staff will be leaving in just a few 
minutes to prepare for the next hearing in San Diego. But we do 
welcome additional comments for the record and will leave it 
open. You can contact Mr. Ose, and he will see that it is made 
part of the complete record. And everything that has been said 
here today and submitted will be part of a permanent record and 
used by the committee and Congress hopefully in its future 
decisionmaking in a wise fashion.
    There being no further business to come before the Criminal 
Justice, Drug Policy and Human Resources Subcommittee at this 
time, this meeting is adjourned.
    [Whereupon, the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6900.062


</pre></body></html>
